Appendix:

XI.1

Texas CCA Refusal

XI. Appendices
Appendix-A. Refusal Notices - Texas CCA
FILE COPY
OFFICIAL NOTICE FROM COURT OF CRIMINAL
APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711
COA No. 04-19-00483-CR
PD-0864-20
YADAV, VINAY PRAKASH Tr. Ct. No. 601415
On this day, the Appellant's Pro Se petition for discretionary
review has been refused.
Deana Williamson, Clerk
12/9/2020

4TH COURT OF APPEALS CLERK
MICHAEL A. CRUZ
300 DOLOROSA, THIRD FLOOR
SAN ANTONIO, TX 78205-3037
* DELIVERED VIA E-MAIL *
FILE COPY
OFFICIAL NOTICE FROM COURT OF CRIMINAL
APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711
COA No. 04-19-00486-CR
PD-0865-20
YADAV, VINAY PRAKASH Tr. Ct. No. 601414
On this day, the Appellant's Pro Se petition for discretionary
review has been refused.
Deana Williamson, Clerk
12/9/2020

4TH COURT OF APPEALS CLERK
MICHAEL A. CRUZ
300 DOLOROSA, THIRD FLOOR
SAN ANTONIO, TX 78205-3037
* DELIVERED VIA E-MAIL *

Appendix:

B.l

Appendix-B.

Texas COA Opinion

Opinion of Texas Appeal Court

JfourtI) Court of Appeals
!§>an Untonto, Ccxas
MEMORANDUM OPINION
Nos. 04-19-00483-CR & 04-19-00486-CR
VinayYADAV,
Appellant
v.
The STATE of Texas
Appellee
From County Court at Law No. 15, Bexar County, Texas
Trial Court Nos. 601415 & 601414
Honorable Melissa Vara, Judge Presiding
Opinion by: Beth Watkins, Justice
Sitting:
Rebeca C. Martinez, Justice
Irene Rios, Justice
Beth Watkins, Justice
Delivered and Filed: August 12, 2020
AFFIRMED
A jury found appellant Vinay Yadav guilty of criminal
trespass and resisting arrest, search, or transportation.
Yadav challenges his conviction in sixteen issues. We affirm
the trial court’s judgment.

Appendix:

B.2

Texas COA Opinion

BACKGROUND
On November 19, 2018, Bexar County Sheriffs Office
Lieutenant Raymond Ortega arrested Yadav in the parking
garage of Yadav’s then-employer, One Frost. On November
29, 2018, Yadav was charged with the misdemeanor offenses
of criminal trespass and resisting arrest, search, and
transportation. At trial, the jury heard testimony that One
Frost’s assistant vice president of enterprise physical
security, Dwight Obey, initially gave Yadav the choice to
either report to human resources for a meeting or leave the
premises for the day. Multiple witnesses testified that Yadav
refused to report to human resources and became disruptive.
Those witnesses also testified that Obey then ordered Yadav
to leave several times, but Yadav refused even after he was
warned he would be arrested if he stayed. The jury also
heard testimony that after Ortega told Yadav he was under
arrest, Yadav “[threw] his head back,” “arch[ed] his back,”
and “flail[ed]” and “flopp[ed]” his body while Ortega was
trying to handcuff him and transport him to a police car.
A Bexar County jury found Yadav guilty of both charges,
and the trial court sentenced him to: 180 days in the Bexar
County Jail, probated for eighteen months; sixty hours of
community service; and anger management classes. The
trial court also ordered Yadav to have no contact with the
One Frost campus. Yadav filed two motions for new trial, but
he did not set those motions for hearing and they were
overruled by operation of law. This appeal followed.
ANALYSIS
Yadav raises sixteen issues challenging his conviction.
We will consider related issues together.
Sufficiency of the Evidence
In his eleventh issue, Yadav contends the trial court
erred by denying his motion for directed verdict on the
resisting arrest charge because there is no evidence he
prevented or obstructed Ortega from conducting a search, or
used force against Ortega. He also contends there is no
evidence to support his conviction for criminal trespass
because he had One Frost’s permission to be on the premises.

L

Appendix.

B.3

Texas COA Opinion

Because this issue would, if meritorious, potentially require
us to render a judgment of acquittal on one or both charges,
we will consider it first. See Benavidez v. State, 323 S.W.3d
179, 181 (Tex. Crim. App. 2010).
Standard of Review
A motion for directed verdict attacks the sufficiency of the
evidence to sustain a conviction. McDuff v. State, 939 S.W.2d
607, 613 (Tex. Crim. App. 1997). As a result, we construe
Yadav’s complaint about the trial court’s ruling on his
motion for directed verdict as a legal sufficiency challenge.
See id. In reviewing a complaint that the evidence presented
at trial is legally insufficient to support a jury’s guilty
verdict, we must determine whether any rational trier of fact
could have found the essential elements of the charged
offense beyond a reasonable doubt. Adames v. State, 353
S.W.3d 854, 860 (Tex. Crim. App. 2011) (citing Jackson, v.
Virginia, 443 U.S. 307, 319 (1979)); Caballero v. State, 292
S.W.3d 152, 154 (Tex. App.—San Antonio 2009, pet. refd).
We view the evidence in the light most favorable to the jury’s
guilty verdict and resolve all reasonable inferences from the
evidence in its favor. Tate v. State, 500 S.W.3d 410, 417 (Tex.
Crim. App. 2016). “Because the jury is the sole judge of
witness credibility and determines the weight to be given to
testimony,” we must defer to its determinations. Hines v.
State, 383 S.W.3d 615, 623 (Tex. App.—San Antonio 2012,
pet. refd). “If any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt,
we must affirm the trial court’s judgment.” Hernandez v.
State, 198 S.W.3d 257, 260 (Tex. App.—San Antonio 2006,
pet. refd).
Applicable Law
Under section 38.03 of the Texas Penal Code, a person
commits the offense of resisting arrest, search, or
transportation “if he intentionally prevents or obstructs a
person he knows is a peace officer . . . from effecting an
arrest, search, or transportation of the actor or another by
using force against the peace officer or another.” Tex. Penal
CODE Ann. § 38.03(a). For the purposes of section 38.03,

Appendix:

B.4

Texas COA Opinion

“using force against” a peace officer means “‘violence or
physical aggression, or an immediate threat thereof, in the
direction of and/or into contact with, or in opposition or
hostility to, a peace officer.”’ Finley v. State, 484 S.W.3d 926,
928 (Tex. Crim. App. 2016) (quoting Dobbs v. State, 434
S.W.3d 166, 171 (Tex. Crim. App. 2014)). Evidence showing
an individual “used force against the officers by pulling
against the officers’ force” will support a conviction under
section 38.03. Id.
A person commits the offense of criminal trespass if he,
inter alia, “remains on or in property of another . . . without
effective consent and the person .. . received notice to depart
but failed to do so.” Tex. PENAL CODE Ann. § 30.05(a)(2).
“‘Notice’ means: (A) oral or written communication by the
owner or someone with apparent authority to act for the
owner.” Id. § 30.05(b)(2)(A).
It is well-established that where a charging instrument
alleges different methods of committing an offense in the
conjunctive, “it is proper for the jury to be charged in the
disjunctive ... if the evidence is sufficient to support a
finding under any of the theories submitted.” Kitchens v.
State, 823 S.W.2d 256, 258 (Tex. Crim. App. 1991); see also
Pizzo v. State, 235 S.W.3d 711, 714-15 (Tex. Crim. App.
2007). When a jury returns a general verdict, “the State need
only have sufficiently proven one of the paragraph
allegations to support the verdict of guilt.” Fuller v. State,
827 S.W.2d 919, 931 (Tex. Crim. App. 1992); see also Pizzo,
235 S.W.3d at 714 (“Jury unanimity is required on the
essential elements of the offense but is generally not
required on the alternate modes or means of commission.”)
(internal quotation marks omitted).
Application
1. Resisting arrest, search, or transportation
Yadav notes the information alleged he obstructed his
own arrest, search, and transportation, while the court’s
charge allowed. the jury to find him guilty based on a
conclusion that he obstructed his own arrest, search, or
transportation. Because there is no evidence Yadav

Appendix:

B.5

Texas COA Opinion

obstructed a search, he argues this discrepancy entitles him
to acquittal on the resisting charge.
The Texas Court of Criminal Appeals has held that where
the focus of a statutory offense is the result of the defendant’s
conduct, rather than the specifically alleged conduct itself,
then allegations of different types of conduct do not amount
to separate offenses that the State must independently
prove. Huffman v. State, 267 S.W.3d 902, 907 (Tex. Crim.
App. 2008). This court and several sister courts have held
that section 38.03 “defines a single offense that a person may
commit by obstructing or preventing a peace officer from
performing his duty, whether that duty involves the arrest,
search, or transportation of the actor.” McIntosh v. State, 307
S.W.3d 360, 366 (Tex. App.—San Antonio 2009, pet. refd);
see also Clement u. State, 248 S.W.3d 791, 802 (Tex. App.—
Fort Worth 2008, no pet.); Hartis v. State, 183 S.W.3d 793,
799 (Tex. App.—Houston [14th Dist.] 2005, no pet.); Finster
v. State, 152 S.W.3d 215, 219 (Tex. App.—Dallas 2004, no
pet.). Under this analysis, the “focus” of section 38.03 is the
result of the defendant’s conduct— the obstruction of a peace
officer’s duties—not the conduct itself. See, e.g., McIntosh,
307 S.W.3d at 366. As a result, the State can satisfy its
burden of proof under that statute by presenting legally
sufficient evidence of only one theory of conduct, even if the
court’s charge asks the jury to consider multiple theories in
the disjunctive.11 See id.] see also Huffman, 267 S.W.3d at
907; Finster, 152 S.W.3d at 218-19.
Here, multiple witnesses testified that while Ortega was
trying to handcuff Yadav, Yadav “arch[ed] his back back [sic]
and tr[ied] to wiggle away from [Ortega]”; “was throwing his
leg back”; and “started to flail like a fish, flopping, kicking
11 Yadav cites Agnew u. State, 635 S.W.2d 167 (Tex. App.—El Paso 1982,
no writ) to support his contention that because the information alleged
he obstructed his own arrest, search, and. transportation, the State was
required to prove all three theories. However, in Agnew—unlike in this
case—the court’s charge asked the jury to consider whether the
defendant obstructed both an arrest and a search. Agnew, 635 S.W.2d at
168.

Appendix:

B.6

Texas COA Opinion

his head back, twirling.” Obey testified that “it was hard for
Officer Ortega to restrain [Yadav]” in light of the “continual
resistance of Mr. Yadav actually wiggling, flopping
backwards, trying to get his arms and so forth out of [his]
jacket.” Ortega himself testified that when he tried to
handcuff Yadav, “he was resisting, squirming his body, you
know, squirming away...[H]e was actively resisting,
obstructing me and not letting me just willingly handcuff
him.” He also testified that after Yadav was handcuffed and
Ortega was trying to transport him to a police car, “I was
trying to isolate him, get control of him. He was flailing his
body and then he would fall like he was trying to, you know—
causing his entire body to fall to the ground.” Based on this
testimony that Yadav fought Ortega’s attempts to both
handcuff Yadav and move him to a police vehicle, a rational
factfinder could conclude that Yadav’s conduct obstructed
Ortega from performing his duties related to Yadav’s arrest
and transport. See TEX. PENAL CODE § 38.03(a); McIntosh,
307 S.W.3d at 366.
Under the plain language of section 38.03, the State was
required to show not only that Yadav obstructed Ortega’s
exercise of his duties, but also that he did so by exerting force
against Ortega. Tex. Penal Code § 38.03(a); Finley, 484
S.W.3d at 928. The court’s charge instructed the jury to
determine whether Yadav used force against Ortega by
pushing Ortega with his hand or flinging his body toward
Ortega. See Pizzo, 235 S.W.3d at 715 (noting “means of
commission or nonessential” offense elements “are generally
set out in ‘adverbial phrases’ that describe how the offense
was committed”). Yadav contends there is no evidence to
support the jury’s affirmative finding because “Ortega stated
in his testimony that neither of those two things occurred”
and because there is no evidence Ortega was endangered by
Yadav’s actions.
While it is true Ortega testified Yadav did not push
Ortega with his hand, the jury heard testimony—including
from Ortega—that Yadav repeatedly tried “to wiggle away
from” Ortega and that he moved his back, head, and leg in

Appendix:

B.7

Texas COA Opinion

Ortega’s direction while doing so. This evidence would allow
a rational factfinder to conclude Yadav used force against
Ortega, both as that term is used in section 38.03 and as
specified in the court’s charge. See Tex. PENAL CODE §
38.03(a); Finley, 484 S.W.3d at 927, 929 (evidence suspect
refused to put his arms behind his back to be handcuffed and
“pulled his arms away from the arresting officers” was
sufficient to support conviction under 38.03). The State was
not required to show Yadav posed a specific danger to Ortega
to prove he violated section 38.03. See Tex. PENAL CODE §
38.03(a); Clement, 248 S.W.3d at 797 (“[W]hen a defendant
thrashes his arms and legs and is combative towards an
officer, he forcefully resists arrest.”).
Based on this evidence, a rational trier of fact could have
found all of the essential elements of section 38.03 beyond a
reasonable doubt. See Adames, 353 S.W.3d at 860. As a
result, the evidence is legally sufficient to support the jury’s
finding of guilt under section 38.03. See TEX. PENAL CODE §
38.03(a); Finley, 484 S.W.3d at 929; see also Hernandez, 198
S.W.3d at 260.
2. Criminal trespass
Yadav contends the trial court should have granted his
motion for directed verdict on the criminal trespass charge
because he had One Frost’s permission to be on the premises.
He asserts he tried to leave but was kept on the premises
against his will by One Frost employees who wanted to
retrieve company property from him. While Obey
acknowledged that some of One Frost’s employees tried to
retrieve company property from Yadav, he testified he
“overruled” those attempts and instructed Yadav to leave.
See Tex. Penal Code § 30.05(b)(2)(A) (notice to depart can
come from “someone with apparent authority to act for the
owner”). Obey also testified that he had authority to order a
One Frost employee to leave. See id. Another One Frost
employee who witnessed the incident, Robert Torres,
testified that Yadav “was asked several times” to leave and
was told he would be trespassing if he did not. Additionally,
Ortega testified that Obey told Yadav to leave “several

Appendix:

B.8

Texas COA Opinion

times” and Yadav refused. Finally, Obey and two other One
Frost employees who witnessed the incident, Virginia
Gonzales and Michael Landin, all testified that Yadav tried
to go back in the building after he had been directed to leave.
Based on this evidence, a rational factfinder could conclude
Yadav was given notice to depart but failed to do so. See id.
As a result, the evidence is legally sufficient to support
Yadav’s criminal trespass conviction. See Hernandez, 198
S.W.3d at 260. Because the evidence is legally sufficient to
support Yadav’s conviction on both charges, we overrule his
eleventh issue.
3. Factual sufficiency
In his sixth issue, Yadav primarily argues the evidence is
factually insufficient to support his conviction because the
State presented incomplete and/or altered surveillance
footage of the incidents leading up to his arrest. Texas
appellate courts do not review criminal convictions for
factual sufficiency. See Brooks v. State, 323 S.W.3d 893, 894—
95 (Tex. Crim. App. 2010). Because we have already held the
evidence is legally sufficient to support Yadav’s conviction on
both charges, we overrule Yadav’s factual sufficiency claim.
See Hernandez, 198 S.W.3d at 260.
Yadav also contends in his sixth issue that the trial court
refused to allow him to present evidence that One Frost
tampered with and/or destroyed video surveillance footage of
the events that led to his arrest. However, the record
citations upon which he relies for this assertion do not
support it, and Yadav’s expert witness testified that the
videos he reviewed did not show any signs of tampering. We
may not consider assertions in a brief that are not supported
by the record. See Salazar v. State, 5 S.W.3d 814, 816 (Tex.
App.—San Antonio 1999, no pet.). Additionally, while
Yadav’s brief appears to complain of Fourth Amendment
violations—specifically, that several items were improperly
seized from him during his arrest—Yadav did not assert any
Fourth Amendment claims in the trial court. Moreover,
nothing in the record supports his contention that the items
he identifies in his brief were seized from him during his

Appendix:

B.9

Texas COA Opinion

arrest. See Tex. R. App. P. 33.1; see also Salazar, 5 S.W.3d at
816. We overrule Yadav’s sixth issue.
Wording of the Court’s Charge
In his thirteenth issue, Yadav complains the court’s
charge on resisting arrest, search, or transportation was
improperly worded because it did not conform to the
charging instrument. He also argues he was prejudiced by
the inclusion of the phrase “criminal episode” in the charge.
As noted above, the information charging Yadav with
resisting arrest alleged he used force against Ortega by
pushing Ortega with his hand and flinging his body toward
Ortega, but the court’s charge allowed the jury to find him
guilty if it concluded he used force by pushing Ortega with
his hand or flinging his body toward Ortega. Yadav did not
complain about this discrepancy during the charge
conference. To the contrary, the proposed charge Yadav’s
attorneys read into the trial court record contained the same
“or” construction he complains about on appeal. Because
Yadav did not raise this argument in the trial court, he must
show the error “was so egregious and created such harm that
Pie] was denied a fair trial.” Warner u. State, 245 S.W.3d 458,
461-62 (Tex. Crim. App. 2008).
We hold he has not made that showing. We have already
held the evidence is legally sufficient to support a finding
that Yadav flung his body toward Ortega while Ortega was
trying to arrest and transport him. Because the evidence is
legally sufficient to support conviction under at least one of
the submitted theories, Yadav has not shown that the
discrepancy he identifies between the information and the
court’s charge affected the very basis of the case, deprived
him of a valuable right, or vitally affected a defensive theory.
See id.; see also Pizzo, 235 S.W.3d at 714-15.
Yadav also complains the trial court abused its discretion
by overruling his objection to the phrase “criminal episode”
in the charge. Yadav has not presented any authority
showing the inclusion of that phrase in the court’s charge
was error under these circumstances. See Tex. R. APP. P.

Appendix:

B.10

Texas COA Opinion

38.1; McDuff, 939 S.W.2d at 613. We overrule Yadav’s
thirteenth issue.
Defensive Instruction
In his first issue, Yadav argues the trial court improperly
refused to submit a statutory defensive instruction to the
jury. The State responds that Yadav was not entitled to
assert that defense under the statute’s plain language.
Standard of Review and Applicable Law
We review a trial court’s decision to deny a defensive
instruction for abuse of discretion. McCallum v. State, 311
S.W.3d 9, 13 (Tex. App.—San Antonio 2010, no pet.). “A trial
court abuses its discretion when its ruling is outside the zone
of reasonable disagreement.” Id. A criminal defendant is not
entitled to the submission of a defensive instruction “unless
evidence is admitted supporting the defense.” Tex. Penal
Code Ann. § 2.03(c); Shaw v. State, 243 S.W.3d 647, 657
(Tex. Crim. App. 2007). A defense is “supported” if the
defendant presents the “minimum quantum of evidence
necessary to support a rational inference” that the defense is
true. Shaw, 243 S.W.3d at 657.
Application
It is a defense to a charge of criminal trespass “that the
actor at the time of the offense was ... a person who was: (A)
employed by or acting as agent for an entity that had, or that
the person reasonably believed had, effective consent or
authorization provided by law to enter the property; and (B)
performing a duty within the scope of that employment or
agency.” Tex. PENAL CODE § 30.05(e)(3). Yadav contends the
trial court abused its discretion by denying his request to
instruct the jury on this defense because he was still a One
Frost employee when he was arrested. The State responds
that section 30.05(e)(3) does not apply to employees of the
property owner. It also argues Yadav was no longer a One
Frost employee when he was arrested and that he did not
show “he was performing a duty within the scope of his
employment or agency” when he was arrested.
We need not resolve the question of statutory
construction the State has presented, because we agree that

Appendix:

B.ll

Texas COA Opinion

Yadav did not present any evidence that he was performing
duties within the scope of his employment at the relevant
time. See id. The evidence shows Yadav was in the parking
garage when Obey ordered him to leave for the final time and
when Ortega arrested him for refusing to do so. The evidence
also shows Yadav was in the parking garage specifically
because he had refused his employer’s instructions to report
to human resources for a meeting. Yadav, who was employed
by One Frost as a software developer, did not present any
evidence that his job duties included any tasks performed in
the parking garage. Because Yadav did not show he was
“performing a duty within the scope of [his] employment or
agency” when he was ordered to depart the premises or when
he was arrested for refusing to do so, the trial court did not
abuse its discretion by refusing to instruct the jury on section
30.05(e)(3)’s “employee” defense. See id..; McCollum, 311
S.W.3d at 13. We overrule Yadav’s first issue.
Evidentiary Rulings
Standard of Review and Applicable Law
In his second and fifteenth issues, Yadav challenges the
trial court’s evidentiary rulings. “Trial court decisions to
admit or exclude evidence will not be reversed absent an
abuse of discretion.” Behain v. State, 559 S.W.3d 474, 478
(Tex. Crim. App. 2018). To show an abuse of discretion, the
appellant must show the trial court’s decision was outside
the zone of reasonable disagreement. Id.
Application
1. Exclusion of Yadav’s bloody jacket
In his second issue, Yadav contends the trial court abused
its discretion b}' refusing to admit the bloody jacket he was
wearing at the time of his arrest into evidence. Yadav argues
the jacket was relevant evidence because it shows Ortega
“battered” Yadav during the arrest and “sent him to jail after
injuring him in bleeding conditions.” The State responds
Yadav was not harmed by the jacket’s exclusion because the
trial court admitted photographs of it.
We agree with the State. As Yadav himself notes,
multiple witnesses testified that he was injured during his

Appendix:

B.12

Texas COA Opinion

arrest and that his clothes were bloodied as a result.
Moreover, the trial court admitted multiple photographs of
Yadav wearing the bloody jacket. Because the jury heard
testimony that Yadav was injured during his arrest and saw
photographs of the bloody jacket, we cannot say the trial
court’s decision to exclude the jacket itself was outside the
zone of reasonable disagreement. See id. We overrule
Yadav’s second issue.
2. Admission of irrelevant hearsay evidence
In his fifteenth issue, Yadav argues the trial court abused
its discretion by admitting irrelevant, prejudicial hearsay
statements about his character that were contained in his
employee file. As the State notes, however, the record shows
the trial court consistently sustained Yadav’s objections to
hearsay “about [his] character as an employee or as a
coworker.” Although the trial court allowed the State’s
witnesses to testify that Yadav had received verbal and
written warnings from his employer, it limited that
testimony to the witnesses’ own personal knowledge of
performance-related issues that led to those warnings, and
it repeatedly refused to allow the State’s witnesses to testify
about others’ perceptions of whether Yadav was a “team
player” or “his general demeanor toward other employees.”
It also did not admit the written warnings into evidence or
allow the State’s witnesses to read portions of those
documents into the record. We conclude Yadav has not
identified any hearsay that was erroneously admitted into
evidence.
Additionally, even assuming the challenged evidence was
irrelevant or unfairly prejudicial, “[t]he erroneous admission
of evidence is non-constitutional error. Non-constitutional
errors are harmful, and thus require reversal, only if they
affect Appellant’s substantial rights.” Gonzalez v. State, 544
S.W.3d 363, 373 (Tex. Crim. App. 2018). Here, the record
shows the jury heard ample evidence to support its finding
of guilt on both charges. We therefore conclude, based on our
review of the record as a whole, that any error in admitting
the evidence Yadav challenges in his fifteenth issue either

Appendix:

B.13

Texas COA Opinion

“did not influence the jury, or had but a slight effect.” Id. As
a result, we overrule Yadav’s fifteenth issue. See id.; see also
Tex. R. App. P. 44.2.
Motion to Reopen
In his third issue, Yadav contends the trial court abused
its discretion by refusing to allow him to present testimony
from witnesses who had been subpoenaed but did not appear
at trial. In his fourth issue, he argues the trial court erred by
refusing to allow him to call previous witnesses back to the
stand for additional re-cross examination. In his fifth issue,
he argues the trial court erred by denying his motion to
reopen the evidence for the presentation of the testimony he
addresses in his third and fourth issues.
Standard of Review and Applicable Law
The Texas Code of Criminal Procedure provides that a
trial court “shall allow testimony to be introduced at any
time before the argument of a cause is concluded, if it
appears that it is necessary to a due administration of
justice.” Tex. Code Crim. Proc. Ann. art. 36.02. The Texas
Court of Criminal Appeals has held that “due administration
of justice” means the trial court must reopen the evidence “if
the evidence would materially change the case in the
proponent’s favor.” Peek v. State, 106 S.W.3d 72, 79 (Tex.
Crim. App. 2003). “That the proffered evidence is relevant is
not enough; it ‘must actually make a difference in the case’
and not be cumulative of evidence previously presented.’”
Birkholz v. State, 278 S.W.3d 463, 464 (Tex. App.—San
Antonio 2009, no pet.) (quoting Peek, 106 S.W.3d at 79). We
review a trial court’s decision on whether to reopen the
evidence for abuse of discretion. Id.
Application
In his third issue, Yadav argues the trial court abused its
discretion by refusing to allow him to present the testimony
of several One Frost employees he had subpoenaed.
However, Yadav did not attempt to call those witnesses until
he moved to reopen the evidence—i.e., after he had already
rested his case. As a result, he was required to show that
their testimony “would materially change the case” in his

Appendix:

B.14

Texas COA Opinion

favor. See Peek, 106 S.W.3d at 79. In the trial court, Yadav
identified the subpoenaed witnesses as coworkers “in [his]
work area,” but he did not explain what their testimony
would have been or how their testimony would have helped
his case. And other than a statement that the subpoenaed
individuals were coworkers who “were sitting around his
work-desk” on the day of the incident, his brief is also silent
on this issue. Because Yadav has not shown that the
subpoenaed witnesses’ testimony would “actually make a
difference in the case,” we overrule his third issue. Birkholz,
278 S.W.3d at 464.
In his fourth issue, Yadav argues the trial court erred by
refusing to allow him to recall Landin, Gonzales, Obey,
Ortega, and Torres to the stand for additional cross
examination. He claims those examinations were “of utmost
importance to [his] case” because those witnesses
“committed multiple perjuries” during their earlier
testimony. He also argues he was denied his right to confront
them. As was the case with his third issue, however, Yadav
did not ask to conduct these re-cross examinations until he
moved to reopen the evidence. Additionally, the record shows
Yadav cross-examined all of these witnesses at some length
before the parties rested. During cross-examination, his
attorneys repeatedly questioned the witnesses’ recollection
of the relevant facts and emphasized alleged discrepancies
between the witnesses’ statements and the available video
evidence. Because the record shows Yadav had an
opportunity to impeach those witnesses’ credibility in front
of the jury, the trial court did not abuse its discretion by
concluding that re-cross examination on their purported
perjuries would have been “cumulative of evidence
previously presented.’” See id. We overrule Yadav’s fourth
issue.
In his fifth issue, Yadav contends the trial court abused
its discretion by refusing to reopen the evidence after the
parties rested. Yadav’s motion to reopen was based on the
evidence addressed by his third and fourth issues on appeal.
Because Yadav has not shown that the additional evidence

Appendix:

B.15

Texas COA Opinion

he wished to present would have “materially changed this
case in [his] favor,” we cannot say the trial court abused its
discretion by denying the motion to reopen. See Peek, 106
S.W.3d at 79. We overrule Yadav’s fifth issue.
Jury Deliberation Question
In his seventh issue, Yadav argues the trial court erred
by refusing to give a substantive answer to the following
question asked by the jury:
We would like to get clarification on the
transportation aspect of the resisting arrest
charge. We want to ensure that this includes
the act of the defendant walking under his own
power to the police vehicle.
In response, the trial court told the jury:
Members of the jury, in response to your
inquiry, you have heard all the evidence in this
case, and you have all the exhibits that were
admitted during trial as well as the Charge of
the Court. You are instructed to please continue
your deliberations.
Although Yadav objected to that answer at trial, his only
objection was that “the jury has not heard all the evidence.”
On appeal, however, he now contends this question shows
the jury was “perplexed” and required additional instruction
on “the actual law” of the resisting charge. Because the issue
presented on appeal does not correspond with the objection
Yadav made at trial, he has not preserved it for this court’s
consideration. See Lemon v. State, 298 S.W.3d 705, 708 (Tex.
App.—San Antonio 2009, pet. refd). We overrule Yadav’s
seventh issue.
Right to Self-Representation
In his eighth issue, Yadav contends the trial court erred
by refusing to allow him to present closing argument. In his
ninth issue, he argues the trial court erred by denying his
request to represent himself. We construe both of these
issues as complaints that the trial court’s rulings violated
Yadav’s right to self-representation. In response to both

Appendix:

B.16

Texas COA Opinion

issues, the State contends Yadav did not timely assert his
right to self-representation.
A criminal defendant has a constitutional right to
represent himself if he knowingly, intelligently, and
voluntarily waives the right to counsel. See Faretta v.
California, 422 U.S. 806, 807 (1975); Hatten v. State, 71
S.W.3d 332, 333 (Tex. Crim. App. 2002). However, “[a]n
accused’s right to self-representation must be asserted in a
timely manner, namely, before the jury is impaneled.”
McDuff, 939 S.W.2d at 619; see also Ex parte Winton, 837
S.W.2d 134, 135 (Tex. Crim. App. 1992). We review the
denial of a defendant’s request to represent himself for abuse
of discretion, viewing the evidence in the light most favorable
to the trial court’s ruling. Lathem v. State, 514 S.W.3d 796,
802 (Tex. App.—Fort Worth 2017, no pet.).
Here, Yadav first invoked his right of self-representation
after both sides had rested, long after the jury was
impaneled. As a result, his request to represent himself was
untimely. See McDuff, 939 S.W.2d at 619; Ex parte Winton,
837 S.W.2d at 135. We therefore cannot say the trial court
abused its discretion by denying that request. See Latham,
514 S.W.3d at 803; see also Calderon v. State, No. 10-1700265-CR, 2019 WL 962310, at *3 (Tex. App.—Waco Feb. 27,
2019, pet. refd) (mem. op., not designated for publication)
(rejecting a challenge to timeliness requirement).
Although Yadav’s brief implies the trial court did not
permit any summation to be offered on his behalf, the record
shows his attorneys presented closing argument to the jury.
To the extent Yadav argues he should have been allowed to
present his own closing in addition to that offered by his
attorneys, we overrule that argument. “There is no
constitutional right in Texas to hybrid representation
partially pro se and partially by counsel.” Landers v. State,
550 S.W.2d 272, 280 (Tex. Crim. App. 1977); see also Webb v.
State, 533 S.W.2d 780, 784 (Tex. Crim. App. 1976) (noting
Texas courts have “held that an accused does not have the
right to be both represented by counsel and also propound
his own questions to witnesses and make jury argument in

Appendix:

B.17

Texas COA Opinion

his own behalf’). The Texas Court of Criminal Appeals
recently reiterated that hybrid representation “is disallowed
in Texas.” See Tracy v. State, 597 S.W.3d 502, 509 (Tex.
Crim. App. 2020). We therefore overrule Yadav’s eighth and
ninth issues.

Right to Testify
In his tenth issue, Yadav contends he was denied the
right to testify on his own behalf. A criminal defendant has
a constitutional right to testify in his own defense. See Rock
u. Arkansas, 483 U.S. 44, 51-52 (1987); Nelson v. State, 765
S.W.2d 401, 404 (Tex. Crim. App. 1989). However, “[e]ven
constitutional errors may be waived by failure to timely
complain in the trial court.” Pabst v. State, 466 S.W.3d 902,
907 (Tex. App.—Houston [14th Dist.] 2015, no pet.).
“Although there are no technical considerations or forms of
words required to preserve an error for appeal, a party must
be specific enough so as to ‘let the trial judge know what he
wants, why he thinks himself entitled to it, and do so clearly
enough for the judge to understand him at a time when the
trial court is in a proper position to do something about it.”’
Resendez v. State, 306 S.W.3d 308, 312-13 (Tex. Crim. App.
2009) (quoting Lankston v. State, 827 S.W.2d 907, 909 (Tex.
Crim. App. 1992)).
Here, nothing in the record shows Yadav ever clearly
invoked his right to testify, either through his attorneys or
during his own discussions with the trial court. In his reply
brief, Yadav contends that his statement, “All the evidence
that we haven’t presented to the jury or to this Court, so I
would like to present all those cases—all those evidence
myself,” was sufficient to put the trial court on notice that he
wanted to testify in his own defense. However, Yadav made
that statement in response to the question, “Can you let me
know why you’d like to represent yourself?” Under these
circumstances, we conclude that this statement, without
more, did not clearly and specifically invoke Yadav’s right to
testify. See id. Moreover, while Yadav states in his brief that
he objected to jury instructions indicating he had chosen not
to testify, the record does not support this assertion. As a

Appendix:

B.18

Texas COA Opinion

result, the record does not allow us to conclude that the trial
court was aware Yadav wanted to testify at a time when it
was “in a proper position to do something about it” but
nevertheless denied him that right. Id.
It is true, as Yadav notes, that the trial court “asked the
court reporter to go off-the-record for 35 minutes” shortly
before he indicated he wanted to dismiss his attorneys and
represent himself. Yadav appears to contend that he
expressed his wish to testify during those 35 minutes.
However, nothing in the record indicates Yadav objected to
going off the record or specifically asked for a record to be
made during that time. As a result, he waived any complaint
he may have had about the trial court’s decision to go off the
record. See Valle v. State, 109 S.W.3d 500, 508- 09 (Tex.
Crim. App. 2003). Additionally, we cannot consider any
factual assertions about what purportedly happened off the
record. Hiatt v. State, 319 S.W.3d 115, 123 (Tex. App.—San
Antonio 2010, pet. refd). Because nothing in the record
shows Yadav expressed a desire to testify but was denied the
right to do so, we conclude he has not preserved this issue for
our review. Tex. R. APP. P. 33.1; see Pabst, 466 S.W.3d at 907.
We overrule Yadav’s tenth issue.
Yadav’s Twelfth Issue
In his twelfth issue, Yadav appears to argue the State
colluded with One Frost and its employees to offer damaging
testimony against him. He also appears to contend that the
State and/or One Frost improperly refused to disclose
evidence to him, such as “all agreements between State and
[One Frost]” that he believes would show “collusion” between
the State and witnesses employed by One Frost. Finally, he
contends that a number of the State’s witnesses offered
untruthful testimony about the events leading up to his
arrest, implies the State had a duty “to correct the fallacious
testimonies of’ its witnesses, and argues the trial court erred
by not charging the State’s witnesses with perjury.
Because Yadav’s twelfth issue “is based on more than one
legal theory and raises more than one specific complaint,” it
is multifarious. Prihoda v. State, 352 S.W.3d 796, 801 (Tex.

Appendix:

B.19

Texas COA Opinion

App.—San Antonio 2011, pet. refd). “As an appellate court,
we may refuse to review a multifarious issue or we may elect
to consider the issue if we are able to determine, with
reasonable certainty, the alleged error about which the
complaint is made.” Id. The basis for each complaint appears
to be that the State’s witnesses gave untruthful testimony.
“In the interest of justice, we elect to consider this
contention.” Id.
Yadav points to nothing in the record that conclusively
supports his assertions that the State’s witnesses lied.
Although Yadav disputes the witnesses’ recitation of events,
as an appellate court, we have no authority to re-weigh the
evidence or substitute our own judgment for that of the jury.
See Febus v. State, 542 S.W.3d 568, 572 (Tex. Crim. App.
2018). While Yadav contends the video evidence offered at
trial disproves the testimony of the State’s witnesses, the
jury viewed those videos and could therefore draw its own
conclusions about their impact on the witnesses’ credibility.
Cf. Zill v. State, 355 S.W.3d 778, 788 (Tex. App.—Houston
[1st Dist.] 2011, no pet.); see also Gonzales v. State, No. 0115-00914-CR, 2016 WL 5920778, at *4 (Tex. App.—Houston
[1st Dist.] Oct. 11, 2016, no pet.) (mem. op., not designated
for publication). Moreover, as noted above, Yadav’s attorneys
repeatedly pointed to perceived discrepancies between the
video evidence and the State’s witnesses’ testimony during
cross-examination. See Trippell v. State, 535 S.W.2d 178,181
(Tex. Crim. App. 1976) (“Cross-examination is the principal
means by which the believability of a witness and the truth
of his testimony are tested.”) (internal quotation marks
omitted). Because we must defer to the jury’s determinations
on the credibility of the witnesses and the weight to be given
to their testimony, we overrule Yadav’s twelfth issue. See
Hines, 383 S.W.3d at 623.
Motion for New Trial
In his fourteenth issue, Yadav argues the trial court erred
by not holding a hearing on his motions for new trial and
denying those motions by operation of law. The State

Appendix.

B.20

Texas COA Opinion

responds that Yadav was not entitled to a hearing because
he did not timely present his motions to the trial court.
“The right to a hearing on a motion for new trial is not
absolute.” Aguilar v. State, 547 S.W.3d 254, 264 (Tex. App.—
San Antonio 2017, no pet.). A criminal defendant who seeks
a new trial must present his motion to the judge who tried
the case within ten days of its filing. Tex. R. App. P. 21.6;
Aguilar, 547 S.W.3d at 264. To satisfy this requirement, the
record must contain “some documentary evidence or notation
that the trial judge personally received a copy of the motion
and could therefore decide whether to set a hearing or
otherwise rule upon it.” Gardner v. State, 306 S.W.3d 274,
305 (Tex. Crim. App. 2009). “Without any documentary proof
that the trial judge personally saw the motion for new trial,
the judge cannot be faulted for failing to hold a hearing on
the motion.” Aguilar, 547 S.W.3d at 265.
Here, Yadav told the trial court at the end of his July 8,
2019 sentencing hearing that he “would like to file” a motion
for new trial. The trial court responded that he needed “to do
that all through the proper channels .... That’s not today
and that’s not done orally.” Yadav then filed two written
motions for new trial on August 7, 2019. However, he did not
file a separate motion requesting a hearing, the motions do
not contain any notation indicating the judge saw them, and
there is no entry on the docket sheet showing the motions
were presented to the judge. See id. Because the record does
not contain any documentary proof that the trial court judge
personally saw either of Yadav’s motions within ten days of
their filing, we conclude Yadav failed to timely present his
motions for new trial. See id. at 265-66. As a result, the trial
court did not abuse its discretion by allowing the motions to
be overruled by operation of law without a hearing. See id.
We overrule Yadav’s fourteenth issue.
Yadav’s Expert Witness
In his sixteenth issue, Yadav argues the trial court erred
by “ignoring” the testimony of his expert witness, Russell
McWhorter, who testified that Ortega violated certain
policies and procedures of the Bexar County Sheriffs Office

Appendix:

B.21

Texas COA Opinion

during Yadav’s arrest. However, the jury was the sole judge
of both McWhorter’s credibility and the weight to give to his
testimony. Williams v. State, 432 S.W.3d 450, 453 (Tex.
App.—San Antonio 2014, pet. refd). We “may not sit as a
thirteenth juror and substitute our judgment for that of the
fact-finder.” Id. We therefore overrule Yadav’s sixteenth
issue.
CONCLUSION
We affirm the trial court’s judgment.
Beth Watkins, Justice
Do Not Publish

Appendix

C.22

Verbatim

Appendix-C. Verbatim Citation
i. The U.S. Constitution
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
Fourth Amendment to the U.S. Constitution
No person shall be held to answer for a
capital, or otherwise infamous crime, unless on
a presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any
person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
Fifth Amendment to the U.S. Constitution
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and
district wherein the crime shall have been
committed, which district shall have been
previously ascertained by law, and to be
informed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for

C.23

Appendix

Verbatim

obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defence.
Sixth Amendment to the U.S. Constitution
The enumeration in the Constitution, of
certain rights, shall not be construed to deny or
disparage others retained by the people.
Ninth Amendment to the U.S. Constitution
Neither slavery nor involuntary servitude,
except as a punishment for crime whereof the
party shall have been duly convicted, shall exist
within the United States, or any place subject
to their jurisdiction.
Thirteenth Amendment to the U.S. Constitution, § i
All persons born or naturalized in the
United States and subject to the jurisdiction
thereof, are citizens of the United States and of
the State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
Fourteenth Amendment to the U.S. Constitution, § 1
11.

Texas Bill of Rights

Sec. 9. SEARCHES AND SEIZURES. The
people shall be secure in their persons, houses,
papers and possessions, from all unreasonable
seizures or searches, and no warrant to search
any place, or to seize any person or thing, shall
issue without describing them as near as may
be, nor without probable cause, supported by
oath or affirmation.
Texas Constitution - Bill of Rights Article I, § 9

Appendix

C.24

Verbatim

RIGHTS OF ACCUSED IN CRIMINAL
PROSECUTIONS. In all criminal prosecutions
the accused shall have a speedy public trial by
an impartial jury. He shall have the right to
demand the nature and cause of the accusation
against him, and to have a copy thereof. He
shall not be compelled to give evidence against
himself, and shall have the right of being heard
by himself or counsel, or both, shall be
confronted by the witnesses against him and
shall have compulsory process for obtaining
witnesses in his favor, except that when the
witness resides out of the State and the offense
charged is a violation of any of the anti-trust
laws of this State, the defendant and the State
shall have the right to produce and have the
evidence admitted by deposition, under such
rules and laws as the Legislature may hereafter
provide; and no person shall be held to answer
for a criminal offense, unless on an indictment
of a grand jury, except in cases in which the
punishment is by fine or imprisonment,
otherwise than in the penitentiary, in cases of
impeachment, and in cases arising in the army
or navy, or in the militia, when in actual service
in time of war or public danger.
Texas Constitution - Bill of Rights Article I, § 10
EXCESSIVE BAIL OR FINES; CRUEL OR
UNUSUAL PUNISHMENT; OPEN COURTS;
REMEDY BY DUE COURSE OF LAW.
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel or unusual
punishment inflicted. All courts shall be open,
and every person for an injury done him, in his
lands, goods, person or reputation, shall have
remedy by due course of law.
Texas Constitution - Bill of Rights Article I, § 13

Appendix

C.25

Verbatim

LIBERTY,
DEPRIVATION OF LIFE
PROPERTY, ETC. BY DUE COURSE OF
LAW. No citizen of this State shall be deprived
of life
liberty, property, privileges or
immunities, or in any manner disfranchised,
except by the due course of the law of the land.
Texas Constitution - Bill of Rights Article I, § 19
111.

Texas Employee Defense Statute

It is a defense to prosecution under this
section that the actor at the time of the offense
was: ... (3) a person who was: (A) employed by
or acting as agent for an entity that had, or that
the person reasonably believed had, effective
consent or authorization provided by law to
enter the property; and (B) performing a duty
within the scope of that employment or agency.
Texas Penal Code § 30.05(e)(3).
IV.

Rights of Accused

In all criminal prosecutions the accused
shall have a speedy public trial by an impartial
jury. He shall have the right to demand the
nature and cause of the accusation against him,
and to have a copy thereof. He shall not be
compelled to give evidence against himself. He
shall have the right of being heard by himself,
or counsel, or both; shall be confronted with the
witnesses against him, and shall have
compulsory process for obtaining witnesses in
his favor.
TEX.C.CR.PROC.art-1.05
v.

Right to have Defense Witnesses

The right of an accused to have compulsory
process for obtaining witnesses in his favor
stands on no lesser footing than the other Sixth

C.26

Appendix

Verbatim

Amendment rights that we have previously
held applicable to the States.
Washington v. Texas, 388 U.S. 14,19 (1967)
The right to offer the testimony of witnesses,
and to compel their attendance, if necessary, is
in plain terms the right to present a defense,
the right to present the defendant's version of
the facts as well as the prosecution's to the jury
so it may decide where the truth lies. Just as an
accused has the right to confront the
prosecution's witnesses for the purpose of
challenging their testimony, he has the right to
present his own witnesses to establish a
defense. This right is a fundamental element of
due process of law.
Washington v. Texas, 388 U.S. 14* 1.9.(1967).
vi.

Right to Cross-examine

The right granted to an accused by the Sixth
Amendment to confront the witnesses against
him, which includes the right of crossexamination, is a fundamental right essential
to a fair trial and is made obligatory on the
States by the Fourteenth Amendment.
Pointer v. Texas,, 380 U.S. 400 (1965).
A person's right to reasonable notice of a
charge against him, and an opportunity to be
heard in his defense — a right to his day in
court — are basic in our system of
jurisprudence; and these rights include, as a
minimum, a right to examine the witnesses
against him, to offer testimony...
In re Oliver,.333 U.S, 257, 273 (1948)

Appendix

C.27

Verbatim

CONFRONTED BY WITNESSES. The
defendant, upon a trial, shall be confronted
with the witnesses
TEX.C.CR.PROC.art-1.25
vn.

Right to respond to Jury’s Law questions in­
deliberation

"In a trial by jury in a federal court, the
judge is not a mere moderator, but is the
governor of the trial for the purpose of assuring
its proper conduct and of determining questions
of law." Quercia v. United States, 289 U.S. 466,
469. "The influence of the trial judge on the jury
is necessarily and properly of great weight,"
Starr v. United States, 153 U.S. 614^626, and
jurors are ever watchful of the words that fall
from him. Particularly in a criminal trial, the
judge’s last word is apt to be the decisive word.
If it is a specific ruling on a vital issue and
misleading, the error is not cured by a prior
unexceptionable and unilluminating abstract
charge.
Bollenbach v. United States, 326 U.S. 607,.612.(1946)
Under Texas law, the judge must provide
the jury with "a written charge distinctly
setting forth the law applicable to the case; not
expressing any opinion as to the weight of the
evidence, not summing up the testimony,
discussing the facts or using any argument in
his charge calculated to arouse the sympathy or
excite the passions of the jury.
Walters v. State, 247 S.W.sd 204, 208 (Tex.Cr.App.2008)
"If jurors differ as to the instructions they
should come into court and have them repeated,
or if they wish more information as to the law
they should request it of the court, and it has
been held that it is not only the right but the

Appendix

C.28

Verbatim

duty of the court to reinstruct on any question
of law arising from the facts on which the jury
say they are in doubt, and on which they ask
further instructions. Where the jury make their
difficulties explicit, the judge should clear them
away with concrete accuracy; and where the
question asked is not clear, it is the duty of the
court to seek clarification."
People v. Harmon, 104 Ill. App. 2d 294,.301, (IJ1, App, Ct. 1968)
We consider that the court's response to the
jurors' question was no less than a refusal to
reinstruct them as to an applicable proposition
of law, a refusal to clarify their doubts. Their
question, while not framed in language of the
utmost possible clarity, was intelligible and,
even if it were not, it was the court's duty to ask
the questioners to make their inquiry clearer.
That there was a binding duty to answer the
question cannot be doubted.
People v. Gonzalez, 293 N.Y. 259, 261 (N,Y,_ 1944)
[T]he trial court committed reversible error
when it refused to respond to an inquiry from
the jury which indicated its question
People v. Shannon, 206 Ill. App. 3d 310, 312, 564 N.E.2d 198,
202-03 (Ill. App. Ct. 1990)
Where a jury has raised an explicit question
on a point of law arising from the facts over
which there is doubt or confusion, the court
should attempt to clarify the question in the
minds of the jury members.
People v. Kucala, 7 Ill. App, 3d 1029, 1035, 288 N.E.2d 622,
626-27(111. App. Ct. 1972); People v. Morris, 81 Ill. App. 3d 288,
290,401 N.E.2d 284, 286 (Ill, App, Ct. 1980)

Appendix

C.29
vrn.

Verbatim

Right of Own Summation

It can hardly be questioned that closing
argument serves to sharpen and clarify the
issues for resolution by the trier of fact in a
criminal case. For it is only after all the
evidence is in that counsel for the parties are in
a position to present their respective versions of
the case as a whole. Only then can they argue
the inferences to be drawn from all the
testimony, and point out the weaknesses of
their adversaries' positions. And for the
defense, closing argument is the last clear
chance to persuade the trier of fact that there
may be reasonable doubt of the defendant’s
guilt. See In re Winship, 397 U.S. 358.
Herring v. New York,A22 U.S. 853, 862 (1975)
This is a substantial legal right, of which the
defendants could not be deprived by an exercise
of judicial discretion. The defendant in an
action, civil or criminal, who introduces no
evidence after the plaintiff, or the State, as the
case may be, has rested, is entitled as a matter
of right to reply to the argument of counsel for
the plaintiff or of the solicitor for the State, and
to that end to conclude the argument to the
jury.
State v. Raper, 166 S.E. 314, 203 N.C. 489,.492 (N.C, 1932)
The right to closing argument is a
substantial legal right of which a defendant
may not be deprived by the exercise of a judge's
discretion.
State v. Eury, 317 N.C. .511, 517 (N.C., 1986)
IX.

Right against Malicious Prosecution

DUTIES OF DISTRICT ATTORNEYS. ... It
shall be the primary duty of all prosecuting

Appendix

C.30

Verbatim

attorneys, including any special prosecutors,
not to convict, but to see that justice is done.
They shall not suppress facts or secrete
witnesses capable of establishing the innocence
of the accused.
TEX.C.CR.PROC.art-2.oi.
[Pjrosecutor’s closing argument was so
grossly improper that the trial court erred in
failing to intervene ex mero motu to correct the
error, as we cannot say that there is not a
reasonable possibility that had the argument
not been made, a different result would have
been reached at trial.
State v. Williams, 317 N.C. 474, 483 (19.86)
When, as in this case, the trial court persists
in making discourteous and disparaging
remarks to a defendant's counsel and witnesses
and utters frequent comment from which the
jury may plainly perceive that the testimony of
the witnesses is not believed by the judge, and
in other ways discredits the cause of the
defense, it has transcended so far beyond the
pale of judicial fairness as to render a new trial
necessary. Neither can a plea for the
application of the section of the constitution
save this situation. The fact that a record shows
a defendant to be guilty of a crime does not
necessarily determine that there has been no
miscarriage of justice. In this case the
defendant did not have the fair trial guaranteed
to him by law and the constitution.
People v. Mahoney, 201 Cal, .618,. 627..(Cal...1927); People v.
Dickman,.'143 Cal.App.2d Supp. 833, 836 (Cal. Super. 1956)
x.

Individual Right to Self-Represent

The Sixth Amendment as made applicable
to the States by the Fourteenth guarantees that

Appendix

C.31

Verbatim

a defendant in a state criminal trial has an
independent constitutional right of self­
representation and that he may proceed to
defend himself without counsel when he
voluntarily and intelligently elects to do so; and
in this case the state courts erred in forcing
petitioner against his will to accept a stateappointed public defender and in denying his
request to conduct his own defense.
Faretta v. California, 422 U.S. 806 (1975)
The choice is not all or nothing: To gain
assistance, a defendant need not surrender
control entirely to counsel. For the Sixth
Amendment, in "granting] to the accused
personally the right to make his defense,"
"speaks of the ‘assistance’ of counsel, and an
assistant, however expert, is still an assistant."
Faretta,422 U.S.3 at 819-820, 95 S.Ct, 2525; see
Gannett Co. v. DePasquale,443 ILS..368*.,382,.n.
10, ..99..S.Ct. 2898,. 61. L:Ed,2d 608 ..(1979) (the
Sixth Amendment "contemplates] a norm in
which the accused, and not a lawyer, is master
of his own defense").
McCoy v. Louisiana,. 138 S.Ct. 1500,1508.(2018)
xi.

Right to Testify

In trial of all persons charged with the
commission of offenses against the United
States and in all proceedings in courts martial
and courts of inquiry in any State, District,
Possession or Territory, the person charged
shall, at his own request, be a competent
witness. His failure to make such request shall
not create any presumption against him.
18 U.S.C. § 3481
[Defendants have a right to testify in their
own behalf under the Due Process Clause of the

Appendix

C.32

Verbatim

Fourteenth Amendment, the Compulsory
Process Clause of the Sixth Amendment, and
the Fifth Amendment's privilege against self­
incrimination.
Rock v. Arkansas, 483 U.S. 44 (1987)
[T]he right to testify on one's own behalf in
defense to a criminal charge is a fundamental
constitutional right.
Id. at 53 n.10 (1987) (emphasis added).

xu.

Right to confront against Perjuries

Subornation of perjury: Whoever procures
another to commit any perjury is guilty of
subornation of perjury, and shall be fined under
this title or imprisoned not more than five
years, or both.
18 U.S.C. §§ 1621, 1622, 1623
Whoever, being an officer, director, agent or
employee of any Federal Reserve bank, member
bank, depository institution holding company,
national bank, insured bank, branch or agency
of a foreign bank, . . . makes any false entry in
any book, report, or statement of such bank,
company, branch, agency, or organization with
intent to injure or defraud such bank, company,
branch, agency, or organization, or any other
company, body politic or corporate, or any
individual person, or to deceive any officer of
such bank, company, branch, agency, or
organization, or the Comptroller of the
Currency, or the Federal Deposit Insurance
Corporation, or any agent or examiner
appointed to examine the affairs of such bank,
company, branch, agency, or organization, or
the Board of Governors of the Federal Reserve
System; or Whoever with intent to defraud the

Appendix

C.33

Verbatim

United States or any agency thereof, or any
financial institution referred to in this section,
participates or shares in or receives (directly or
indirectly) any money, profit, property, or
benefits through any transaction, loan,
commission, contract, or any other act of any
such financial institution—Shall be fined.
18 U.S.C. § 1005 - Bank Fraud & False Statements
AGGRAVATED PERJURY, (a) A person
commits an offense if he commits perjury as
defined in Section .37.02, and the false
statement: (1) is made during or in connection
with an official proceeding; and (2) is material,
(b) An offense under this section is a felony of
the third degree. ...Sec. 37.04. MATERIALITY,
(a) A statement is material, regardless of the
admissibility of the statement under the rules
of evidence, if it could have affected the course
or outcome of the official proceeding, (b) It is no
defense to prosecution under Section 37.03
(Aggravated Perjury) that the declarant
mistakenly believed the statement to be
immaterial, (c) Whether a statement is
material in a given factual situation is a
question of law.
Texas Penal Code §§ 37.02, 37.03, 37.04
The failure of the prosecutor to correct the
testimony of the witness which he knew to be
false denied petitioner due process of law in
violation of the Fourteenth Amendment.
Napue v. Illinois,, 360 U.S...264 (1959)
[T]he prosecution's duty to present all
material evidence to the jury was not fulfilled
and constitutes a violation of due process
Giglio v. United States,.405 U,S. 150 .(1972).

Appendix

C.34

xiii.

Verbatim

Right of Specific Charge

[a] written charge distinctly setting forth
the law applicable to the case; not expressing
any opinion as to the weight of the evidence, not
summing up the testimony, discussing the facts
or using any argument in his charge calculated
to arouse the sympathy or excite the passions of
the jury. Before said charge is read to the jury,
the defendant or his counsel shall have a
reasonable time to examine the same and he
shall present his objections thereto in writing,
distinctly specifying each ground of objection.
Said objections may embody errors claimed to
have been committed in the charge, as well as
errors claimed to have been committed by
omissions therefrom or in failing to charge upon
issues arising from the facts, and in no event
shall it be necessary for the defendant or his
counsel to present special requested charges to
preserve or maintain any error assigned to the
charge, as herein provided.
TEX.C.CR.PROC.art-36.14
[I]t must show that the accused has
committed an offense against the law of this
state, or state that the affiant has good reason
to believe and does believe that the accused has
committed an offense against the law of this
state
TEX.C.CR.PR0C.art-45.0l9(a)(4)
No principle of procedural due process is
more clearly established than that notice of the
specific charge, and a chance to be heard in a
trial of the issues raised by that charge, if
desired, are among the constitutional rights...
Cole v. Arkansas, 333 U.S. 196, 201 (1948)

Appendix

C.35

Verbatim

It is the opinion of this court that the
indictment in this case is fatally defective, and
that the form of indictment for theft prescribed
in the act of the Legislature hereinbefore
quoted is repugnant to the Constitution, and
that a defendant who has been tried upon such
an indictment has not been tried "by due course
of the law of the land." (Bill of Rights § 19). The
judgment, therefore, is reversed and the
prosecution dismissed.
Williams v. State, 12 Tex.App. 395, 401.(1882)

xiv.

Right of Directed Verdict

DIRECTED VERDICT. If, upon the trial of
a case in a justice or municipal court, the state
fails to prove a prima facie case of the offense
alleged in the complaint, the defendant is
entitled to a directed verdict of "not guilty."
Tex.C.Cr.Proc.art-45.032
[I]t is not sufficient to establish an
obstruction of a search. The police officer
testified that no effort was made to search the
Appellant at the time of the arrest...
Agnew v. State, 635.S,W,2d 167,168. (Tex.App.1982)
Appellant's action in twice pulling his arm
away did not constitute force against the peace
officer. There being no other evidence upon
which the jury could base its verdict, the
conviction must be reversed and a judgment of
not guilty rendered.
Raymond v. State,.640 S.W.2d 678, 6.79.(Tex.App...1982)
The State failed, however, to adduce
sufficient evidence that appellant used force
directed against Officer Landrum after the
initial shoving. Accordingly, we sustain

C.36

Appendix

Verbatim

appellant's sole point of error. We reverse the
conviction and render a judgment of not guilty.
Leos v. State, 88 o S.W.2d 180,184 (Tex.App.1994)
xv.

Right to Reopen

TESTIMONY AT ANY TIME. The court
shall allow testimony to be introduced at any
time before the argument of a cause is
concluded, if it appears that it is necessary to a
due administration of justice.
TEX.C.CR.PROC.art-36.02
The trial judge fell into error in refusing to
allow appellant's counsel to adduce testimony
from the two witnesses who were available to
testify on Wednesday, November 4, 1964.
Although the testimony of these two witnesses
is brought forward by bill of exception and the
state takes issue with the testimony and says
that it is either cumulative or of no probative
value, we feel that appellant had the right to
adduce it and allow the jury to weigh its
credibility and probative value. It was an abuse
of discretion not to allow its submission to the
jury. Art. 643, Vernon's Ann.C.C.P., provides
for the allowance of testimony to be introduced
at any time before the argument of a cause is
concluded
Kepley v. State,,391 S.W.2d 423, 425 (Tex.Cr.App.1965)
extreme
case
presents
no
This
circumstances that could justify exclusion of
this exculpatory testimony. The trial court
abused its discretion by denying the motion to
reopen the proofs to permit the witness to
testify. Accordingly, the convictions must be
reversed.”
People v. Goff, 299 Ill.App.3d.944, 949, 234..HIDec. 133,.7.Q2
N.E,2d 299.(1998)

Appendix
xvi.

C.37

Verbatim

Unlawful & Excessive Use of Force

BILL OF RIGHTS EXCEPTED FROM
POWERS
OF
GOVERNMENT
AND
INVIOLATE. To guard against transgressions
of the high powers herein delegated, we declare
that everything in this “Bill of Rights” is
excepted out of the general powers of
government, and shall forever remain inviolate,
and all laws contrary thereto, or to the
following provisions, shall be void.
Texas Constitution - Bill of Rights Article I, § 29
When does police officer's use of force during
arrest become so excessive as to constitute
violation of constitutional rights, imposing
liability under Federal Civil Rights Act of 1871
(42 U.S.C. § 1983)
60 A.L.R. Fed. 204 (1982)
Every person who, under color of any
statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District
of Columbia, subjects, or causes to be subjected,
any citizen of the United States or other person
within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress
Federal Civil Rights Act of 1871 (42 U.S.C. § 1983)
9.01 POLICY. It is the policy of the Bexar
County Sheriffs Office that deputies use only
the force that reasonably appears necessary to
effectively bring an incident under control,
while protecting the lives of the officer and
others the use of force must be objectively
reasonable. The deputy must only use that

C.38

Appendix

Verbatim

force which a reasonably prudent officer would
use under the same or similar circumstances.
Bexar-County-Policy/Procedures § 9.01 (CHAPTER 9 — Use of
Force REV. APR 15, 2014)

xvii.

Evidence Destruction, Tampering &
Spoliation

Whoever knowingly alters,
destroys,
mutilates, conceals, covers up, falsifies, or
makes a false entry in any record, document, or
tangible object with the intent to impede,
obstruct, or influence the investigation or
proper administration of any matter within the
jurisdiction of any department or agency of the
or in relation to or
United States . .
contemplation of any such matter or case, shall
be [in violation of this statute]. 18 U.S.C. §
I5i9(emphasis added).
United States v. Hunt, 526 F,3d 739,-743 (nlh Cir. 2008)

tampering with or fabricating
PHYSICAL EVIDENCE, (a) A person commits
an offense if, knowing that an investigation or
official proceeding is pending or in progress, he:
(1) alters, destroys, or conceals any record,
document, or thing with intent to impair its
verity, legibility, or availability as evidence in
the investigation or official proceeding; or (2)
makes, presents, or uses any record, document,
or thing with knowledge of its falsity and with
intent to affect the course or outcome of the
investigation or official proceeding.
Tex.Penal § 37.09 : Spoliation | Tampering With or
Fabricating Physical Evidence
xvm.

UNREASONABLE SEIZURES

SEARCHES AND SEIZURES. The people
shall be secure in their persons, houses, papers

Appendix

C.39

Verbatim

and possessions from all unreasonable seizures
or searches. No warrant to search any place or
to seize any person or thing shall issue without
describing them as near as may be, nor without
probable cause supported by oath or
affirmation.
TEX.CCR.PROC.art-1.06
xix.

Conspiracy against Civil Rights

If two or more persons conspire to injure,
oppress, threaten, or intimidate any person in
any
State,
Territory,
Commonwealth,
Possession, or District in the free exercise or
enjoyment of any right or privilege secured to
him by the Constitution or laws of the United
States, or because of his having so exercised the
same;. . . They shall be fined under this title or
imprisoned not more than ten years, or both;
and if death results from the acts committed in
violation of this section or if such acts include
kidnapping or an attempt to kidnap,
aggravated . . , they shall be fined under this
title or imprisoned for any term of years or for
life, or both, or may be sentenced to death.
18 U.S.C. § 241
xx.

Conspiracy to commit offense or to defraud

If two or more persons conspire either to
commit any offense against the United States,
or to defraud the United States, or any agency
thereof in any manner or for any purpose, and
one or more of such persons do any act to effect
the object of the conspiracy, each shall be fined
under this title or imprisoned not more than
five years, or both.
18 U.S.C. § 371

Appendix

C.40

Verbatim

CRIMINAL ATTEMPT, (a) A person
commits an offense if, with specific intent to
commit an offense, he does an act amounting to
more than mere preparation that tends but
fails to effect the commission of the offense
intended, (b) If a person attempts an offense
that may be aggravated, his conduct constitutes
an attempt to commit the aggravated offense if
an element that aggravates the offense
accompanies the attempt.
Tex.Penal § 15.01
CRIMINAL CONSPIRACY, (a) A person
commits criminal conspiracy if, with intent that
a felony be committed: (1) he agrees with one or
more persons that they or one or more of them
engage in conduct that would constitute the
offense; and (2) he or one or more of them
performs an overt act in pursuance of the
agreement, (b) An agreement constituting a
conspiracy may be inferred from acts of the
parties.
Tex.Penal §15.02
A. (1) "Association" and "corporation" have
the meanings assigned by Section 1.07, Penal
Code. (2) "High managerial agent" has the
meaning assigned by Section 7.21, Penal Code.
B. If conduct constituting an offense under
Section 29 of this Act is performed by an agent
acting in behalf of a corporation or association
and within the scope of the person's office or
employment, the corporation or association is
criminally responsible for the offense only if its
commission
authorized
requested,
was
commanded, performed, or recklessly tolerated
by: (1) a majority of the governing board acting
in behalf of the corporation or association; or (2)
a high managerial agent acting in behalf of the

Appendix

C.41

Verbatim

corporation or association and within the scope
of the high managerial agent's office or
employment.
Tex. Vernon’s Statutes Art. 581-29-3. Criminal Responsibility of
Corporation
"Restrain" means to restrict a person's
movements without consent, so as to interfere
substantially with the person's liberty, by
moving the person from one place to another or
by confining the person. Restraint is "without
consent" if it is accomplished by: (A) force,
intimidation, or deception;...
UNLAWFUL RESTRAINT, (a) A person
commits an offense if he intentionally or
knowingly restrains another person.
Tex.Penal §§ 20.01, 20.02

Under concert of action, those who are in
pursuit of a common plan or design to commit a
tortious act and actively participate in it or lend
aid, cooperation, or encouragement to the
wrongdoer are equally liable.
Prosser and Keeton on the Law of Torts §..46 ,(W.. Keeton. 5th
ed.,198,4). (This theory of concert of action is also embodied
in the Restatement of the Law of Torts, § 876.)
XXI.

Rules of Evidence

General Admissibility of Relevant Evidence:
Relevant evidence is admissible. Irrelevant
evidence is not admissible.
TEX-/FED-R-Evn>Rule-402
Excluding Relevant Evidence for Prejudice,
Confusion, Waste of Time, or Other Reasons:
The court may exclude relevant evidence if its
probative value is substantially outweighed by
a danger of one or more of the following: unfair
prejudice, confusing the issues, misleading the

Appendix

C.42

Verbatim

jury, undue delay, wasting time, or needlessly
presenting cumulative evidence.
FED-R-EVID-Rule-403
(a) CHARACTER EVIDENCE.
(1) Prohibited Uses. Evidence of a person’s
character or character trait is not admissible to
prove that on a particular occasion the person
acted in accordance with the character or trait.
(b) CRIMES, WRONGS, OR OTHER ACTS.
(1) Prohibited Uses. Evidence of a crime,
wrong, or other act is not admissible to prove a
person’s character in order to show that on a
particular occasion the person acted in
accordance with the character.
FED ■ R- EVTD • Rule-404
Authenticating or Identifying Evidence
(b). (1) Testimony of a Witness with
Knowledge. Testimony that an item is what it
is claimed to be. . . .(4) Distinctive
Characteristics and the Like. The appearance,
contents, substance, internal patterns, or other
distinctive characteristics of the item, taken
together with all the circumstances.
TEX-/FED-R-EviD-Rule-90i(b)(i),(4)

Appendix:

D.43

Record References

Appendix-D. Record References
CROSS REFERENCES OF REPORTER RECORD
FrostBank enslaved Petitioner
RRio'Defense Exhibits-6, 12-14

33, 36, D.46, D.47

FrostBank sent Meeting Invite to Petitioner on Nov 19,
2018 at 11-04 am
RRio State Exhibit-3 blurs timestamp23, 24, 26, 27, D.46,
D.55
Ortega & Obey broke Petitioner’s Car-Door
RRio'Defense Exhibits-7, 9, 11, 28, 30, 32 ....25, 26, 27, 33,
39, D.46
Petitioner’s Injuries due to Landin, Obey & Ortega’s
Aggravating-Assault
RRio'Defense Exhibits-20-22
25, 33, 36, 37, 39, D.47

CROSS REFERENCES OF CLERK RECORD
Active FrostBank Employee Photo ID Badge of Petitioner
CRi pp. 103-104, pp.205-206; CR2 pp. 118-119...... 24, 27, 28,
D.49
Destruction of Evidence by FrostBank
CRi pp.99-101, pp.208-211; CR2 pp.115-11731, 34, 35, D.49
Employment Letters from FrostBank
CRi pp.121-123, P.133, P.207, pp.212-213; CR2 pp.126-129
..........................................................................................24, D.49
FrostBank Final Pay slip to Petitioner on Nov 30 2018
CRi p.204; CR2 p.112.......................................
24, D.50
FrostBank’s False Police-Report
CRi pp.105-118, pp.214-227; CR2 pp.130-143

27, D.49

Juror’s Question
CR2 p.79..............................................................

14, 15, D.51

Medical Clinic Report & Dentist Receipts of broken dental
crown
CRi pp. 126-130, pp.228-232
33, D.49

Appendix:

D.44

Motion in Limine
CRi pp.44-46; CR2 pp.44-46

Record References
11, 39, D.49

Motions for New Trial against unlawful judgements
CRi pp.178-188; CR2 pp.195-205............................... 1, 11, 32
Motions to Reveal Agreements entered into between State
and Frost
21, 22, D.49
CRi pp.35-38; CR2 pp.35-38
Order Granting Motion for Inspection of FrostBank
Premises
CRi p.63; CR2 p.67....................................................... 35, D.49
Order to allow Petitioner to View the Scene at FrostBank
35, D.49
CRi p.67; CR2 p.71
Petitioner leaving from work on his own to buy Birthday
Cake and Pizzas
25, 34, D.49
CRi p.124, p.233............................
Preservation Letters to FrostBank
CRi pp.131-132, pp.148-149, pp.198-200; CR2 pp.113-114
...................................................................................34, 35, D.49
State’s Deceitful COMPLAINT/Charging Instrument
INFORMATION on Resisting
7, 11, 29, 30, 31, D.48
CRi p.10
State’s Deceitful COMPLAINT/Charging Instrument
INFORMATION on Trespass
7, 11, 29, 31, D.48
CR2 p.12.........................................
Subpoenas to FrostBank
CRi pp. 189-197; CR2 pp. 120-125

34, 35, D.50

Texas Penal Code § 30.05(e)(3) : Employee Defense to
Prosecution
23, 24, 25, 29, D.49
CRi pp.125, 195
Trialcourt Judgements & Conditions on July 8, 2019
7, 32, D.50
CRi pp.163-166; CR2 pp.175*176, pp.182-183

Appendix:

D.45

Record References

Trialjudge Nonresponse to Perplexed-Jury during
deliberation July 1, 2019
14, 15, D.51
CR2 />.80
Unlawful CHARGE OF COURT - Jury-Instructions July 1,
2019
CR2 pp.81-81 10, 11, 14, 15, 20, 23, 24, 26, 29, 30, 31, D.51
Unlawfully Impounded Petitioner’s Car on Nov 19, 2018
33, 34, D.50
CRi/y.154-155
Unreasonable-seizures of Petitioner’s cellphone, wallet,
passport, credit-cards, personal-artifacts
34, 37, D.50
CRi/y.156-162.............................
Whistleblower-emails to FrostBank
CRipp.133-147; CR2 pi*. 144-157...

36, D.50

i.

FrostBank Indispensable Parties in the
Record
Alonzo
Annette Alonzo, Group Executive Vice President
Green
Phil Green, C.E.O. Chairman
Gonzales Virginia Gonzales, Sr. Vice President
Landin Michael Landin, Sr. Vice President
Obey
Dwight Obey, Vice President
Ortega
Raymond Ortega, Off-duty Employee
Romero Stephen J. Romero, Attorney, FrostBank
Russell Mike Russell, Group Executive Vice President
Shetgeri Uday Shetgeri, Executive Vice President
Stead
Jimmy Stead, Group Executive Vice President
Torres
Robert Torres, Contractor, FrostBank

ii.
Petitioner
State
Frost /
FrostBank
Expertwitness

Titles from record

Appellant/Defendant
State of Texas, Respondent-Appellee
FrostBank, One Frost, 3838 Rogers Road,
San Antonio TX 78251
Russell McWhorter, Ex Supervisor Police
Officer, Forensic, Electronic Crimes & Use of
Police Force Expert

Appendix:
Trialcourt
Trialjudge

Jury

D.46

Judge Hon. Melissa Vara, Bexar County
Court #15
Six Jurors: Keima Ohi, Jo Lynn Lopez,
Antonio Gallegos Amesquita, Edward Jakob
Zertuche
Caroline Claudia Converse
Katherine Brooke Shell (Jury Foreman,
Product Manager USAA)
m.

Ex-1
Ex-3

Record References

Reporter Records 12

State’s Exhibits (rrio)
Evidence-videos Petitioner walking to
his car
FrostBank’s E-mail Meeting Invite sent
to Petitioner at 11:04 am

RRio 3;
RR4 34-36
RRio 5;
RR5 14

Defendant’s Exhibits (rrio)
Ex-1

Petitioner’s Broken Car-door Photo

Ex-2

Petitioner’s Broken Car-door Photo

Ex-3

Petitioner’s Broken Car-door Photo

Ex-4

Expert-witness Resume

Ex-5
Ex-6

RRio 7;
rr5 47-48
RRio 9;
RRs 47-48
RRio 11;
RRs 47-48
RR10 13-

14; RR5 57
RRio 16;
Expert-witness CV
RRs 57
Obey & Ortega forcibly dragging RRio 18;
Petitioner as a slave towards meeting
RRe 76

12 * RR Volumes
RRi
RR2
RR3
RR4
RRs

of 601414 & 601415 with same last digit are identical.
RR6
RR-V0IOO6
RR-VolOOl
RR7
RR-Vol007
RR-Vol002
RR-Vol003
RRs
RR-V0IOO8
RR-Vol004
RR9
RR-Vol009
RR-Vol005
RRIO RR-VolOlO

Appendix:

Ex-8
Ex-12
Ex-13
Ex-14
Ex-15
Ex-17
Ex-18
Ex-19
Ex-20
Ex-21
Ex-22

D.47

Record References

Blazer - Petitioner’s coat in blood

rr5

105;
RRe 29, 97

Forcefully enslaving Petitioner to go to RRio 20;
HR meeting Photo
RRe 124
Forcefully enslaving Petitioner to go to RRio 22;
HR meeting Photo
RRe 124
Forcefully enslaving Petitioner to go to RRio 24;
HR meeting Photo
RRe 124
Forcefully stopping in parking to go to RRio 26;
HR Photo
RRe 84
Petitioner’s Broken Exterior Car-door RRio 28;
handle Photo
RRe 124
RRio 30;
Petitioner’s Broken Car-door Photo
RRe 124
RRio 32;
Petitioner’s Broken Car-door Photo
RRe 124
RRio 34;
Petitioner’s Injuries, Blood on Coat Photo
RRe 30
RRio 36;
Petitioner’s Face Injuries, Blood Photo
RRe 31
Petitioner’s Face Injuries, Blood, Broken RRio 38;
dental crown
RRe 31

Timestamps & Sequence of Surveillance Videos rri©
State - Ex-1
Video
TimeVideo Sequence
(mp4)
stamp
RRio
Entering into Elevator on Petitioner
11:10:30
Work-floor
immediately after very first
Frost_5contact at his desk
Chan020
RRio

Inside Elevator on Petitioner WorkFrost_9- 11:10:48
floor
Chan047
Exiting Elevator at First-floor
RRlO
Frost_4- 11:11:11 -Petitioner Being enslaved to go to
Landin Meeting
ChanOlO

Appendix
RRio
Frost_4Chan013
RR10
Frost_4Chan012
RRio
Frost_4Chan027
RRio
Frost_4Chan008
RRio
Frost_5Chan047
RRio
Frost_5Chan053
RRio
Frost_5Chan055
RRio
Frost_5Chan050
RRio
Frost„5Chan048
RRiO
Frost_5Chan049

D.48

Record References

11:11:14

First-floor Main-street Lobby
-Fishbowl Camera by TV

11:12:31

First-floor Main-street Lobby
-Forged/paused videos

11:17:35

Exiting Guard/Badge/Metal-detector
Security-exit

11:17:48

Exiting From Security-exit
towards parking-stairs

11:17:56

Exiting From Security-exit in front of
parking-stairs

lobby

11:18:02 Exiting Main-exit into parking
Start walking from Main-exit into
11:18:19 parking towards Petitioner’s car (rear­
view)
Start walking from Main-exit into
11:18:19 parking towards Petitioner’s car (frontview)
11:19:45

Making left-turn in parking just before
entering into Petitioner’s car

11:19:49

After getting into Petitioner’s car Parking Far camera

IV.

Clerk Records 13

Clerk Records cri & CR2

CRi
Page#

Deceitful “COMPLAINTS” Resist & Trespass 10

CR2
Page
12

13 CRi Clerk Record of Case# 601414; CR2 Clerk Record of Case# 601415

Appendix:

D.49

Record References

Motions to Reveal Agreements between
State & FrostBank
Motions in Limine
Orders Granting Motions for Inspection oi
FrostBank Premises
Orders to allow Petitioner to View the
Scene at FrostBank
FrostBank’s Motion to Quash Orders to
allow Petitioner to View the Scene
Memorandum - Statements & Exhibits
Petitioner’s Witnesses list & Evidence
Exhibits Summary
Petitioner’s Character Certificates &
Educational Summary
Destruction of Evidence by FrostBankLetter dated 03042019 (highlighted)
FrostBank’s Anniversary Invite
to
Petitioner on 11152018
FrostBank Employee photo ID Badge ol
Petitioner issued on 10162017
Frost01^: False Police Report “Escorting to
HR” & “Holding his Car-Door” 11192018
FrostBank Response on HR Meeting
02122019 -(highlighted)
FrostBank Voting Letter to Petitioner on
04232019
FrostBank
Employment Letter to
Petitioner on 09112017
Birthday cake & pizzas Receipts from
HEB & Domino 11192018
Texas Penal Code Title 7 Sec 30.05(e)(3)
Medical Clinic Report & Dentist Receipts
to replace broken crown
Letter to FrostBank for Preservation of all
Electronic Surveillance on 12052018
Invite Note from FrostBank’s Shetgeri to
Petitioner on 11142018

35-38

35-38

44-46

44-46

63

67

67

71

68-71
89-92
75-78
79-82
93-96
234-237
9783-98
111
99-101 115208-211 117
102,202,
238
103-104 118205-206 119
105-118 130214-227 143
119
120,201,
203
121-123 126213
128
124,233
125,195
126-130
228-232
131-132
133

129

Appendix:

D.50

Record References

Whistleblowing Email thread from
Petitioner to FrostBank on 11142018
Letter to Shetgeri at FrostBank for
Preservation of all Electronic Record &
Surveillance
Letter to Mike Russell at FrostBank for
Preservation of all Electronic Record &
Surveillance
Witness Letter -Picking up Petitioner’s
broken Car from Impound 01052019
EMS City of San Antonio Letter to
Petitioner on 12142018
Petitioner’s Car Impound by FrostBank on
11192018
FrostBank seized Petitioner’s Wallet, IDs,
Credit Cards, Passport,
Cellphone,
Personal pen-drive, shoes-clothes

134-147

144157

148,200 114

149,199 113
150-151
152-153
154-155
156-162
175-

176
Trialcourt Judgements & Conditions on
163-166
18207082019
183
195Petitioner’s Motions for New Trial on
178-188
205
08072019
Subpoenas to FrostBank for surveillance
122189-190
123
videos on 02222019
Subpoenas to Alonzo/FrostBank for
120191-192
121
surveillance videos on 01292019
Subpoenas to FrostBank for surveillance 193-194 124196-197 125
videos 01232019
FrostBank Acknowledgement Evidence
198
Preservation on 12192018
FrostBank Final Pay slip to Petitioner on
112
204
11302018
FrostBank Joining Email to Petitioner
207
sent on 10052017
Destruction of Evidence by FrostBank 210-211 117
Photo

Appendix:

D.51

Record References

FrostBank Employment Offer Email to
212
Petitioner on 09112017
Order to Consolidate Cause# 601414 and
Cause# 601415
Juror’s Question signed by Jury Foreman
07012019
Judge’s Nonresponse to Perplexed-Jury in
deliberation 07012019
CHARGE OF COURT/Jury Instructions/Jury
Charge 07012019
Petitioner’s
Educational
Credentials
Summary

v.

77

79
80

81-87
162169

Brief Summary of Surveillance Videos
(RRio State-Ex-i)

Following is a small subset of facts from surveillance
video against numerous perjuries perpetrated by all stateactors so-called witnesses:
1. Evidence-video (RRio)Fr°st-5_cho2o timestamps reflect
Obey, Ortega & Torres began walking towards
Petitioner’s desk from elevator at 11:08:50am and
returned along with Petitioner to elevator at 11:10:32am.
Total time spent on Petitioner’s desk, less than one-andhalf-minutes, includes walk-time both-ways from elevator
to his desk and back-to-elevator.
2. Evidence-video (RRi0)Frost-9-Ch047 timestamp reflects total
time 35 seconds spent inside the elevator standing quietly
without saying a word.
3. Petitioner walked with state-actors instantaneously
without any disturbance after asking, “Could he grab his
personal-belongings from his desk-drawer?” They
disallowed. Petitioner immediately walked along within 5
seconds. Both Gonzales & Landin admittedly testified
that ‘Petitioner was leaving voluntarily’ to the birthdayparty.

Appendix:

D.52

Record References

4 RRiQ^rost_4_Ch008,Ch027;Frost_5_Ch047,Ch048,Ch050)Ch053,Ch055

Evidence-videos show Petitioner leaving by himself
calmly, neither yelling nor screaming nor aggressive,
while state-actors continued to encircle/stop him. Videos
show all bystander-employees normally walking around
without hearing a word. State-actors themselves
conflicted that they did not hear anything (RR4 50;RRs
33,53). Petitioner’s desk was surrounded by more than
dozen of his coworkers, who sat around his desk, could
have testified not hearing a word from Petitioner.
5. Evidence-videos (RRio)Frost-9-Ch047 & (RRi0)Frost-4-Ch010
inside/outside of elevator show Obey & Ortega forcing
Petitioner physically for more than 30 seconds with their
both hands. Furthermore, Ortega made him hostage by
turning Petitioner’s body to left forcibly to go to HR
meeting. Petitioner turned right towards exit-pathway to
parking to leave. Obey & Ortega blocked his exist pathway
again in front of elevator asking him to go attend HR
meeting. Petitioner continued walking towards exit to
leave. Videos show Ortega waiving his hands furiously.
Total time spent out of downstairs elevator was 42
seconds. Videos show state-actors stopping Petitioner
physically from “leaving” on three different spots i.e., infront-of-elevator, main-street and inside-car.
6. Petitioner took less than eight minutes to walk from his
desk to car parked over thousand-feet since they arrived
at his desk (RR6 10).
7. Petitioner entered inside his car ready to drive away at
about 11:19am. Ortega abetted FrostBank to hold
Petitioner there. Ortega broke Petitioner’s car-door.
Ortega never asked Petitioner for any identification in
whole sequence (RR6 24,33;RR7 48). Both Gonzales/Landin
testified that they were near driver-side. They testified
along with all others, that Petitioner’s car-door broke in
front of them while Ortega was holding his car-door very
hard.

Appendix:

D.53

Record References

8. In whole sequence, Petitioner was never asked to leave.
Neither Petitioner resigned nor FrostBank terminated
employment. Ortega/Obey neither asked Petitioner to
leave nor mentioned the word “trespassing” in parking or
anywhere else that day, not even once.
9. Ortega rebuts Gonzales/Landin’s perjuries up to a great
extent by stating that Petitioner stood up driver-side of
his car (RR? 65,73).
lO.Ortega & Torres both testified that there was a lot of
Petitioner’s blood on the parking-floor (RR6 67;RR7 32).
11.Ortega himself admittedly testified that Petitioner never
resisted, touched or pushed Ortega at all (RR7 36,68,79)
Landin testified that Petitioner was in full control.
12.Lindsey signed under penalty & perjury stating himself
as custodian of FrostBank Records but testified not a
custodian.
Videos
are
incomplete
and highly
edited/customized favorable angles. Crucial locations’
surveillance-videos have been destroyed.
13.Whole hearsay document presented to Trialcourt is
fraudulently orchestrated.
vi.

Petitioner’s Personal History & Character
Petitioner, 51 years old from well-educated family,
values education, academia and professional success.
Against this background of high education, he worked to
educate himself. Through persistence and hard work, he
graduated with multiple Masters Degrees. He continued his
family tradition of high education and success in workplace.
After graduation, he continued to be highly motivated and
began to achieve professional success. Nearly three decades,
he worked fulltime different positions for well-respected
corporations and left a good impression with his past wellknown employers.
His family background, education history, work
history and zero criminal record suggest a highly stable

Appendix:

D.54

Record References

individual who respects the laws of the communities where
he resides. He is honest, hardworking, good character ethical
person with high moral. 51 years Petitioner has neither any
criminal history nor even any single civil-complaint against
him throughout his life.
SUMMARY OF REPORTER RECORD
Petitioner was fulltime actively employed as Senior
1.
Software Engineer for more than one year at FrostBank,
3838 Rogers Road, San Antonio Texas as of 19 Nov 2018 with
an active photo-ID employee-badge/car-token authorizing
him office/employee-parking.
On Nov 19, 2018, Petitioner was working diligently
2.
and quietly on his desk at FrostBank since morning until
about 11:10 a.m. He had definite plan on leaving from his
work during his lunchbreak starting at 11:15 a.m. to fulfill
his personal obligations to purchase pizzas & cake for his
kid’s birthday-party starting that noon.
On this day at 11:04 a.m., Petitioner received an
3.
Outlook email meeting invite to attend a meeting at 11 a.m.
from FrostBank ‘Michael Landin’ (“Landin”). Landin sent
this offhand email meeting invite on that day at “11:04 a.m”
for a meeting that would have started in the past i.e. four
minutes earlier at “11 a.m.”. Landin’s offhand-meetinginvite had no mention of any supervisors or any reasons of
the meeting or any previous discussions or scheduling any
advance notice of the meeting on Nov 19 2018, and did not
indicate that it was a mandatory meeting. Petitioner never
spoke Landin to request any offhand-meeting that day or
beforehand.
4.
Due to Petitioner’s appointment for his kid’s birthdayparty at lunchtime with school kids and because Landin sent
a delayed calendar appointment for an offhand-meeting that
would started in past, he proposed a new time at 1 p.m. same
day immediately after his lunchbreak to Landin thru
FrostBank Outlook email system in response to the meeting
invite. Petitioner declined unscheduled-meeting at 11:04
Vll.

Appendix:

D.55

Record References

a.m. by proposing it right after lunchbreak at 1 p.m. same
day because of his prior appointment to fulfill his personal
obligations at 11:15 a.m. during his lunchbreak. FrostBank
exhibit deliberately blurred the 11:04 a.m. timestamp, the
actual meeting invite sent-time14, dated Nov 19, 2018.
Upon receiving Petitioner’s prompt-response of 1 p.m.
5.
after-lunch meeting-proposal, Landin immediately sent a
FrostBank ununiformed armed actor large-guard ‘Dwight
Obey’ (“Obey”) along with FrostBank actor15 armed-guard
‘Raymond Ortega’ (“Ortega”), and a FrostBank actor16
armed-guard ‘Robert Torres’ (“Torres”) to his desk to
forcibly bring him for Landin’s offhand-meeting.
6.
FrostBank: Obey, Ortega & Torres arrived and
encircled Petitioner’s desk at about 11:10 a.m. Obey bullied
him to shutdown his computer, instantaneously
intimidatingly snatched his keyboard & mouse from him at
the same time at about 11:10 a.m. while Petitioner was
performing his duties at his desk within the scope of his
employment at FrostBank.
7.
Obey & Ortega surrounded Petitioner, bullied him not
to touch his personal belongings from his desk or drawer, or
his coat hanging on the back of his chair, and bullied him
away from his desk without his personal belongings from his
desk. Torres grabbed and carried his coat from his chair.
Surveillance timestamps show that Petitioner
8.
complied immediately attempted to pack up his desk to
vacate the premises and followed them into an elevator. On
Petitioner’s work-floor, the whole group waited for elevator
to come up to that floor; Petitioner suggested taking quick
stairs to exit; Obey dictated to wait for the elevator;

14 Riiie-State-Ex-3
15 Ortega is FrostBank paid armed employee who directly reported to
FrostBank: Obey & Landin.
1G Torres is FrostBank allied employee like Ortega who directly reported
to FrostBank: Obey & Landin.

Appendix:

D.56

Record References

Petitioner promptly followed Obey, Ortega & Torres into the
elevator.17
Upon exiting elevator on the ground floor at about
9.
11:12 a.m., FrostBank: Obey & Ortega then capriciously
forcibly redirected Petitioner with their Simple Assault at
11:12 a.m. by physically grabbing him and by tormenting
him with one and only one option that he then had to go
attend Landin’s offhand-meeting at once.18 EvidenceVIDEOS show that at about 11:12 a.m., FrostBank: Obey,
Ortega & Torres with their simple-assault made Petitioner
hostage, harassed and pushed him towards FrostBank
meeting-room that he had to go Landin’s offhand-meeting.
Due to FrostBank Obey & Ortega bullying & physical10.
force, Petitioner had already experienced at his desk, he
elected to go to his car and leave.
11.
Petitioner hurried to leave for his prescheduled
appointment, continued to exit calmly towards his car
parked over thousand-feet away, and exited into parking at
11:18 a.m. despite FrostBank gang’s obstructions like sharkcircles thrice to stop him from leaving.
12.
FrostBank’s Obey, Ortega & Torres accompanied by
two Sr. Regional Vice Presidents Virginia Gonzales
(“Gonzales”), Michael Landin & a Group Executive Vice
President Annette Alonzo (“Alonzo”) followed right behind
Petitioner to his vehicle.
EVIDENCE-VIDEOS show Petitioner calmly walking to
13.
his car thousand-feet away from his desk in less than eight
minutes since Obey, Ortega & Torres arrived at his desk
despite FrostBank Obey & Ortega obstructing him from
leaving for his prior appointment.
FrostBank: Alonzo, Gonzales, Landin, Obey, Ortega &
14.
Torres (“gang”) surrounded his car as soon as Petitioner
opened his driver-door and entered into his vehicle to leave

17 RRio-State-Ex 1
18 RRio-Defense-Ex 6, 12-13 Simple Assault Photograph

Appendix:

D.57

Record References

at about 11:19 a.m. After Petitioner entered into his car, this
gang forcibly barricaded him from leaving the premises.19
15.
FrostBank gang testimonies prove that all six
positioned themselves around Petitioner’s car parked in a
very tight parking-spot where other cars were parked both
sides such that Petitioner could not leave or drive away
without letting them giving his car space. Obey & Torres
stood right behind Petitioner’s car blocking from backing it
up. Ortega held and broke Petitioner’s driver-door. Gonzales
& Landin blocked driver side while Alonzo on passenger-side
and parking-concrete-wall blocking front of Petitioner’s car.
16.
FrostBank: Alonzo, Gonzales & Landin instructed
fully armed Obey & direct-subordinate Ortega to break
Petitioner’s car-door to remove him from his car. While
Petitioner was attempting to leave the premises, Obey &
Ortega, having now received additional instruction from
their superiors Alonzo, Gonzales, Landin to pull Petitioner
out from his car because FrostBank: Alonzo, Gonzales,
Landin needed him for Landin’s meeting.
17.
At about 11:22 a.m. when Fifty-years old 5’4”
weighing approximately 130 lbs. safe & delicate Petitioner,
surrounded by gang, was out of office-building inside his car
on his driver seat whole time ready to leave for his kid’s
birthday-party, then FrostBank: armed-actors Obey &
Ortega following the orders of FrostBank. Alonzo, Gonzales
& Landin forcibly broke his car-door20, violently yanked him
from his car threw him to the parking floor.
18.
FrostBank Alonzo, Gonzales & Landin further
instructed Obey & Ortega to unlawfully false-imprison
Petitioner. FrostBank’s Ortega at about 11:22 a.m.
unlawfully handcuffed him, had his personal belongings
confiscated, his car impounded subsequently without
consent, and unlawfully false-imprisoned him without any
19 FrostBank: Alonzo, Gonzales & Landin surrounded his car in the
parking, when Ortega & Obey yanked him, then assaulted him, together
with Landin.
20 RRio-Defense-Ex 1-3, 17-19

Appendix:

D.58

Record References

cause. Then, FrostBank gang’s shenanigan: Alonzo &
Gonzales perpetrated assault recklessly by instructing
Landin, Obey & Ortega to batter Petitioner.
19.
Then, three of FrostBank gang’s fully-armed Landin,
Obey & Ortega aggravatingly assaulted and caused bodily
injuries to Petitioner by battering him to the ground with
their continuous assault right behind his own car at the
direction of Alonzo, Gonzales & Landin. At about 11:23 a.m.,
Alonzo together with Gonzales & Torres confined him while
Landin, Obey & Ortega physically battered him brutally;
injured him, kicked him, broke his dental crown and made
him bleed until all of his formal clothes soaked in his own
blood on the parking floor right behind Petitioner’s car.
20.
While Petitioner handcuffed-facedown, Ortega
pressed Ortega’s knees on his neck and, Obey squashed his
back with Obey’s foot/shoes and Landin kicked Petitioner.
While Ortega’s knee on Petitioner’s neck, Ortega brutally
lifted Petitioner’s face up, and then repeatedly hit his chin &
face to the parking floor, at the same time over 300 lbs.
weighing Obey like a huge guerilla continued to sit on
Petitioner’s back, and Landin & Obey both continued to
shove and kick Petitioner’s back with their shoes. Petitioner
cried for help due to torturous pain on his neck, shoulders,
back, legs, wrists, face & chin due to brutal injuries and
broken teeth. There was Petitioner’s blood all over in
parking, and his formal coat/clothes soaked in his own blood.
21.
Immediately after Petitioner’s injuries, a large pool of
his blood formed on the parking floor right behind his car.
When Petitioner asked Gonzales & Landin to take pictures
of his injuries and blood to document, “both of them refused
and looked away”. Landin & other gang members crossexamined that when “Petitioner was crying for help”; and
“begging to take pictures”, then "Landin looked away”
22.
There is a full box of evidence - Petitioner’s clothes,
coat, inner, shirt, trousers all deeply soaked in his blood
revealing full brutality of FrostBank. Ruthless gang
barbarically injured Petitioner within under ten-minutes
since this gang had arrived at his desk when he had

Appendix:

D.59

Record References

promptly left his desk to depart and had entered into his car
parked over thousand feet away.
FrostBank unlawfully false-imprisoned Petitioner
23.
and later falsely accused him of a fake-trespass even though
he was fulltime-employee there inside his car in the parking
over thousands-feet-away far from his desk, out of building’s
highly guarded security-exits21 thru metal-detectors,
physical-guards and electronic-badge, which FrostBank
instantaneously could remote-disable to prevent any entry.
24.
After aggravating-assault & false-imprisonment
without cause, FrostBank: Alonzo, Gonzales & Landin
maliciously complotted a fake-trespass/resist COMPLAINT socalled “Frost-One” Report (“Frost2*1”)22 and deceitfully filed
it to Bexar-county thru its own actors Obey & Ortega. Phony
Frost2*1 is one of perjurious-pretext-docs FrostBank created
to conspire against Petitioner’s Rights to accuse him falsely
for a fake-trespass. Clear evidence and gang’s testimonies
show that Petitioner was still active-employee when
FrostBank unlawfully false-imprisoned him thru its faketrespass conspiracy. On June 28, 2019, FrostBank paid
rubberstamp-actor Ortega testified that Ortega was working
as FrostBank employee while off-duty and cross-examined to
rebut under-oath that Frost2*11 is “FALSE', phony and
malign. Obey cross-examined that Obey was Ortega’s direct
supervisor and Obey ordered Ortega to restrain Petitioner.
25.
Contrary to phony Frost2*1, Petitioner was in his car
when Obey & Ortega yanked him. First, he was still
employee as testified by FrostBank: Gonzales, Landin, Obey,
Ortega & Torres. Second, Obey & Torres testified that he
was standing next to his car-door, not going anywhere, after
they broke his car-door and yanked him out.
21 In a military style, Over hundreds of FrostBank-guards watch
employees entering or exiting thru metal-detectors using their electronic
badges, which FrostBank instantaneously disables remotely to prevent
any entry. In order to reenter the building an employee has to go through
badge, guards & metal detectors.
22 FrostBank’s fabricated Police-Report a.k.a. Frost2*1 “Incident-Report”

Appendix:

D.60

Record References

Further, to cover up the FrostBank assault on
26.
Petitioner, FrostBank tampered and destroyed the crucial
surveillance-videos evidence from the cameras where its
gang surrounded his car, yanked him and battered.
FrostBank gang not only destroyed parking-cameras-videos
above-car but also destroyed videos from several cameras
around & above Petitioner’s desk to deprive him of the true
evidence against FrostBank perjurers.
Petitioner sent emails and letters to FrostBank: CEO
27.
Phil Green, Chief Banking Officer Jimmy Stead ("Stead"),
Chief Operating Officer (COO) Mike Russell ("Russell"), and
issued subpoenas to Alonzo & Russell, to preserve and
release all surveillance-videos immediately after tragic
battering and false-imprisonment of Petitioner by
FrostBank. FrostBank neither released the crucial and
complete surveillance-videos from above Petitioner’s desk,
despite the existence of several cameras right above around
his desk, nor released the crucial-videos from employee­
parking where Petitioner’s car was parked and towed from
despite the existence of several cameras right on the top of
& around his car, and to exit from which FrostBank
impounded his car.
Despite several preservation-requests thru emails &
28.
letters to FrostBank Phil Green, Stead & Russell, and
subpoenas to Alonzo & Russell immediately after gang’s
assault, FrostBank destroyed crucial surveillance-videos
related to violence against Petitioner from cameras right
above Petitioner’s desk and from employee-parking camera
right above his car.
Per FrostBank attorney Romero’s letter Mar 4, 2019,
29.
FrostBank has destroyed the crucial evidence of
aggravating-assault/injuries by FrostBank pursuant to
FrostBank policy. Despite the fact that Petitioner thereupon
requested FrostBank for preserving evidence thru emails &
letters to Phil Green, Stead & Russell and thru subpoenas to
Alonzo & Russell. FrostBank in contempt of multiple
subpoenas failed to release true & complete surveillance
evidence, and additionally in contempt of court-orders

Appendix:

D.61

Record References

prohibited Petitioner from taking photos of surveillancecameras above his desk & above his car in parking.
30.
To cover up spoliation, on June 10, 2019 against a
court order for
discovery on
FrostBank faketrespass/fraudulent-allegations, FrostBank perpetrated
additional written perjuries with its malicious ex-parte
motion that falsely states,"allowing a bank robber back into
the bank he just robbedmaliciously to harm and wrongfulconvict Petitioner part of its fake-trespass conspiracy.
31.
Few weeks later in December 2018, Petitioner
received a “backdated” letter from Landin indicating his
“employment with FrostBank ended”. FrostBank letter fails
to make any mention of ‘any actions’ or the ‘aforementioned
circumstances’ or ‘termination’. Moreover, FrostBank had
not notified of any formal termination, other than a COBRA
benefits letter, instead FrostBank later opened a 401(K)
account with Fidelity in Petitioner’s name in May 2019 and
sent a check for $19.38 on 30 May 2019.
32.
As of April 2021, FrostBank has neither returned
Petitioner’s personal belongings from his desk back to him
nor paid his accrued paid-time-off(PTO) & -sick-leave even
when FrostBank seriously injured him which took several
months to recover him from the physical injuries caused by
FrostBank: Landin, Obey & Ortega’s aggravating-assault.
33.
FrostBank actions were entirely predicated on
Petitioner’s attempts at alerting FrostBank of issues with
the work he was instructed to perform. Specifically
Petitioner
had
made
numerous
representations,
presentations, comments, and remarks to FrostBank
management
regarding
the
systems
architecture,
programming, database, web & mobile applications protocol,
security and compliance, and IT work which he was required
to perform, and the potential illegalities related thereto.
34.
Petitioner attempted on more than one occasion to
alert his superiors that as a banking institution, any IT
work, applications, websites, systems, auditing, etc. must
follow Consumer Privacy, Gramm-Leach-Blilev ActfGLBA”),
Payment Card Industry Security Data Standards (“PCI DSS”)

D.62

Appendix:

Record References

per 12 U.S.C. §§ 5531(a), 5536(a)(1) Bank-Fraud, AccountingFraud and relevant regulations. However, FrostBank was
not acting in furtherance of conformity or compliance with
these Federal laws. Petitioner frequently and continuously
raised concerns, verbally and in-writings, regarding
FrostBank illegalities & violations of Federal laws.
Petitioner’s whistleblowing were neglected wholly.
35.
Rather, FrostBank cooked malicious deceitful documents
(“pretext-docs”). On one such FrostBank fabricated pretextdocs on Aug 6, 2018, Petitioner had penned that
Landin/Gonzales’s perjury-documents were “completely
false” in his handwriting.
Petitioner had refused to sign the pretext-docs and did
36.
not acknowledge the truth of such findings. Petitioner wholly
denies pretext-docs contain any element of truth.
Specifically, upon the execution of the pretext-docs,
Petitioner noted, “most of the findings are completely
false” FrostBank was working to punish him for attempting
to bring to light the company’s failure to comply with federal
regulations. Ultimately, such retaliation extended to the
immoral events of FrostBank.
Petitioner was given continuously more difficult work,
37.
causing him to stay late to complete the work, all the while
being in a work environment that never formally tracked
tasks with anything other than Post-it Notes. Petitioner
designed and delivered alone two very complex systems Bank’s Payments Systems and a Visa Cards Fraud Alert
Systems in 2018. Petitioner’s performance was superb as he
delivered more work than he was required to do.

vm.

FrostBank Frauds

FrostBank Violations
Since
January
2018, Petitioner consistently had
38.
warned his superiors of the Bank-Fraud, the illegal nature
of FrostBank work of IT, applications, websites, systems,
auditing as a banking institution failing to comply with
federal regulations Consumer Privacy, GLBA, PCI DSS Bank
Regulations under 12 U.S.C. §§ 5.531(a), 5536(a)(1).

Appendix:

D.63

Record References

FrostBank : Bank Accounting Fraud
39.
On or about Nov 14-21, 2018, Petitioner had called
FBI to report his whistleblowing of FrostBank BankAccounting Frauds under 18 U.S.C. §§ 1005, 1344, 1348. Due
to his reports to FBI, FrostBank further retaliated on Nov
19, 2018 thru its conspiracy to later wrongful-convict
Petitioner on July 8, 2019.
IX.

FrostBank Assault & Battery

40.
FrostBank gang intentionally, knowingly & recklessly
followed Petitioner, surrounded his car, blocked his car from
leaving from parking, broke his car-door, violently yanked
him from his car, threw him to the parking floor, confined
him, made him hostage, handcuffed him, unlawfully falseimprisoned and then battered him on the parking floor.
41.
FrostBank armed-actors: Landin, Obey & Ortega
brutally kicked and physically hurt him on Nov 19 2018
between around 11:19 a.m. and 11:22 a.m., perpetrated
aggravating-assault, battery & tragic bodily injuries to
Petitioner while Alonzo, Gonzales & armed Torres assisted
in their hurtful Assault & Battery. Landin, Obey & Ortega
assaulted by throwing him to parking floor, hitting his face
to ground, kicking him all over and severely injuring him
while Alonzo, Gonzales & Torres confined him. Phony
Frost^ itself reveals that Obey & Ortega first violently
yanked Petitioner from his car, unlawfully false-imprisoned
and then Landin, Obey & Ortega brutally battered him.
42.
FrostBank active participant assailants: Senior-VicePresidents Landin, Obey & Ortega altogether directly
kicked, injured, and perpetrated an aggravating-assault on
Petitioner solely with FrostBank indulgence. Ortega crossexamination revealed that Ortega was working off-duty for
its employer FrostBank whole time and simply participating
with FrostBank gang to batter/injure Petitioner. FrostBank
continues to pay its fulltime assailants actors Alonzo,
Gonzales, Landin, Obey indulged in criminal-acts.
43.
Aggravating-assault caused severe bodily injuries to
Petitioner: broken dental-crown fillings, cuts on wrists,

Appendix:

D.64

Record References

internal bleedings due to kicks on his head, chest and back,
loss of significant amount of blood, and many other bodily
injuries. Petitioner physically suffered due to brutal assault.
The surveillance-evidence timestamps prove that
44.
FrostBank gang assaulted Petitioner in less than ten
minutes since the whole gang made “very first contact” at
11:10 a.m. at his work-desk thousand-feet away from his car
to which he entered at about 11:19 a.m.
Petitioner was inside his car ready to drive away to
45.
his home on his own when FrostBank gang blocked his car,
broke the car-door, yanked him, and assaulted him
instantaneously within 30 seconds at about 11:19 a.m. The
biggest evidence is the total time-spent with FrostBank
actors from their very first contact at his desk to his car until
they finally assaulted in his car, less than ten minutes while
he was still fulltime-employee leaving the parking himself.
FrostBank: Phil Green thru Alonzo with FrostBank
46.
gang organized its well-planned aggravating-assault to
cover-up FrostBank white-collar crimes. Landin, Obey &
Ortega paid by FrostBank perpetrated FrostBank’s criminal
actions of well-planned cold-blooded violent conspiracy to
aggravatingly assault and severe injure Petitioner with their
full physical engagement & reckless conduct per Tex.Penal
§§ 22.01, 22.02.

Bodily Injuries & Disfigurement
Landin, Obey & Ortega at Alonzo, Gonzales &
47.
Landin’s direction directly caused Bodily Injuries by their
physical attack from their shoes, by breaking his dental
crown and by making him bleed on the parking floor right
behind Petitioner’s car, and caused him bleed a significant
amount of his blood all over in the parking, and on his formal
coat, clothes and shoes.
FrostBank impaired Petitioner’s teeth, inhibited,
48.
imperfect & deformed his face chin and caused him
embarrassment.

D.65

Appendix:

Record References

Physical & Mental Attack
49.
The physical attack caused Petitioner physical &
emotional impairment. Physical injuries substantially
disrupted Petitioner’s daily routine and caused mental pain,
lost wages, mental anguish, decreased earning capacity and
loss of consortium.
50.
While severely injured and bleeding, Petitioner
reported his injuries to FrostBank: Gonzales & Landin, they
both looked away and refused to record his injuries at
FrostBank-property caused by their direct actions.
Personal Property Destruction
51.
FrostBank gang maliciously destroyed Petitioner’s car
and then unlawfully impounded it without Petitioner
consent on Nov 19, 2018. Car retrieved from Impound has
been preserved as evidence as is.
52.
FrostBank has NOT returned Petitioner’s personal
properties that FrostBank seized from his desk, drawer and
refrigerator due to its malicious and gross negligence act.
53.
FrostBank maliciously destroyed all of Petitioner’s
formal clothes, coat, shoes he wore on Nov 19, 2018.
Petitioner’s formal clothes, coat, and shoes in Petitioner’s
blood have been preserved as evidence

x.

FrostBank Violent Crimes

False-Imprisonment & Unlawful Detention
54.
FrostBank gang made Petitioner hostage and
initiated False-Imprisonment of an actively-employed
hardworking honest employee.
55.
When Obey & Ortega physically grabbed Petitioner
and made him hostage first time to go to HR meeting at 11:11
a.m. in front of elevator, Petitioner asked their names &
titles, they both refused to give their names/titles. Torres
cross-examined that Petitioner was asking their names and
titles and they refused; Obey & Torres had their badges
flipped inside out hiding their names/titles.
56.
FrostBank gang willfully detained Petitioner to
violently assault, batter and injure him, broke his car-door

Appendix:

D.66

Record References

to pull him out, injured him, destroyed-car and soaked his
clothes in his blood.
57.
FrostBank Landin, Obey & Ortega’s misconduct,
aided & abetted by Phil Green, Alonzo, Gonzales and Torres,
for which each of them is malefactor, caused violence of
assault & injuries & unlawful restrain on Petitioner against
TEX.PENAL §§ 20.01, 20.02.

Unlawful Seizure & Conspiracy to Violate Civil Rights
58.
On 19 Nov 18, FrostBank unlawfully seized all of
Petitioner’s personal property - e.g. his wallet, US passport,
personal cellphone, credit cards, pen-drive and his car at his
own employment without any cause, reasons or warrant.
59.
FrostBank has continued to seize unlawfully
Petitioner’s personal property and books from his desk,
work-drawer and work-refrigerator since November 2018
without returning to him as of April 2021.
60.
After unlawfully seizing all of his personal property,
FrostBank damaged and unlawfully seized his car,
fraudulently complotted a phony Frost2^1- for a fake-trespass.
61.
FrostBank perpetrators: Phil Green, Alonzo,
Gonzales, Landin, Obey & Ortega, who conspired against
Petitioner, had “mutual agreement’Tmeeting of minds” on
the object and course of action to conspire, and to cover up
FrostBank malfeasance by false-imprisoning, perpetrating
perjuries and spoliation to wrongful-convict Petitioner to
ruin Petitioner’s good name such that FrostBank continues
to perpetrate its white-collar crimes.
62.
FrostBank perpetrated more than one unlawful overt
acts: Assault, phony Frost01^, False-Imprisonment,
Perjuries, Spoliation to wrongful-convict, & Frauds against
Petitioner to severe damage his Reputation, Life and Career.
63.
FrostBank violated Texas-laws on conspiracy.
FrostBank Evidence Destruction & Spoliation
64.
FrostBank knowingly altered, destroyed, concealed,
covered up, falsified, and made a false entry in the records,
documents, or tangible object with the intent to impede,

Appendix:

D.67

Record References

obstruct, or influence the investigation or in relation to or
contemplation of Petitioner’s case in violation of 18 U.S.C. §
1519-

65.
FrostBank Phil Green & Officers actively perpetrated
record-spoliation,
evidence-destruction
&
tampering/concealing surveillance-videos (i.e. spoliation of
FrostBank parking videos, spoliation of Petitioner’s desk
surveillance-videos and other electronic-records, emails from
Petitioner).
FrostBank Perjuries
66.
FrostBank not only aggravatingly assaulted
Petitioner but also violated State and Federal laws 18 U.S.C.
§§ 1005,1621,1622,1623 (“§§ 1622,1623”); Tex.Penal §§ 37.02,

37.03, 37-04 by perpetrating perjuries and subornation of
perjuries to severely intentionally damage Petitioner.
67.
FrostBank simultaneously conspired and presented
two backdated fabricated pretext-docs to Petitioner to obtain
his signatures on same day. Contrary to FrostBank
perjuries, Petitioner penned “completely false” in his hand­
written remarks and dated each on Aug 6, 2018 when
FrostBank was harassing Petitioner. Both of FrostBank
fraudulent pretext-docs consist of full of hearsays within
hearsays and malicious words such as “insolent” - written
perjuries perpetrated by FrostBank. FrostBank dates &
pretext-docs itself are completely fraudulent. Before the
meeting on Aug 6, 2018, Shetgeri told that FrostBank always
creates fraudulent & false documents against every
employees including Shetgeri himself.
68.
FrostBank conspiringly presented set of backdated
false pretext-docs with full of hearsays to Bexar-county in
June-July 2019 to influence Jury to wrongful-convict
Petitioner, in order to cover up its corporate malfeasance &
white-collar-crimes under §§ 1622, 1623. Over the course of
his employment, Petitioner reported his concerns regarding
Bank&
Accounting-Frauds
to
FrostBank
supervisors/management. Upon Petitioner’s discovery and

Appendix:

D.68

Record References

reporting, FrostBank secretly started plotting a conspiracy
against Petitioner.
69.
FrostBank derogatory falsified to conspire its phony
FrostM consists of FrostBank perjuries perpetrated by
Gonzales, Landin, Obey & Ortega with the collusion and
obstructions of FrostBank Romero to defraud to wrongfulconvict Petitioner.
70.
FrostBank perpetrated perjuries with its malicious
deceitful backdated fabricated pretext-docs to the county.
71.
False and fraudulent publication of written perjuries,
oral testimonies by FrostBank are serious crimes in
violations of §§ 1622, 1623 and Tex.Penal §§ 37.02, 37.03,
37.04, which do not permit FrostBank to abscond after it has
perpetrated numerous absolute-perjuries.
FrostBank False-Statements & Outrageous Conduct
72.
FrostBank conduct is so outrageous in character, and
so extreme in degree, as to go beyond all possible bounds of
decency, and to be regarded as atrocious, and utterly
intolerable in a civilized community. FrostBank conduct is
not merely insensitive, rude, or mere insults, indignities,
threats, annoyances, petty oppressions, or other trivialities
it is beyond outrageous and extreme dangerous to a civilized
society and to any future generations to come.
73.
FrostBank gang engaged in an extreme outrageous
conduct for which Landin, Obey & their direct-subordinate
rubberstamp Ortega together intentionally complotted a
phony Frost01^. Petitioner suffered emotional injuries of
shame, embarrassment, fright, horror, grief, and
humiliation due to FrostBank extreme outrageous conduct
and due to the fact that FrostBank unlawfully made him
spend two days and nights in prison.
74.
Evidence & contradictory-testimonies reveal that
FrostBank
outrageously
perpetrated
perjuries,
destroyed/tampered evidence and accused of fake-trespass to
cover up its malfeasance. Phony Frost21^, perjuries under
oath, evidence-destruction, record-spoliation, and conspiracy
with false & malicious communications to county, pretext -

Appendix:

D.69

Record References

perjuries were the primary reasons that misled perplexedJury resulting in wrongful-convictions.
False Criminal Accusations
75.
FrostBank intentionally, outrageously, and falsely
accused Petitioner for groundless fake-trespass & falseresist judicially. FrostBank cover-up crimes: perjuries, falsedeclarations, and obstruction of justice & fraud are
punishable under False Claims. {C.f. United States v.
Gilliland, 312 US 86,93 (1941)).
76.
CEO Phil Green and all the high-ranking Vice
Presidents Alonzo, Gonzales, Landin, who aided & abetted
the “Conspiracy, Fraud, Spoliation, Physical-Assault, and
False-Imprisonment with cabal of phony FrostM”
^Offences”), are FrostBank and vice-versa (C.f. Burlington
Industries, Inc. v. EUerth, 524 U.S. 742 (1998)). .
77.
Alonzo the ringleader, who takes orders from Phil
Green, confined Petitioner and led FrostBank: Gonzales,
Landin, Obey, Ortega & Torres to perpetrate Offences.
Alonzo, Gonzales, Landin & Torres followed and surrounded
Petitioner’s car to aid & abet Obey & Ortega to break his cardoor.
78.
Phony FrostM is craftiness of Alonzo, Gonzales &
Landin, who directed Obey & direct-subordinate Ortega to
pull Petitioner out and then batter him.
79.
Phil Green, Alonzo & Gonzales indulged in the assault
and the false-imprisonment. Petitioner did not commit any
crimes at any time for which FrostBank fraudulently falseimprisoned him; this fact has been repeatedly recorded thru
Landin’s & Gonzales’s cross-examinations proving that
Frost^ is a malicious, false, document.
80.
FrostBank viciously publicized fraudulent, false and
malicious Frost2^ to harass and defame Petitioner.
FrostBank Fraudulent Trespass Conspiracy
81.
Upon Petitioner’s whistleblowing to Phil Green, Stead
& Russell in October/November 2018, FrostBank Sr.
Executive Vice President Shetgeri was threatening with his

Appendix:

D.70

Record References

at-will status, and Bernal was harassing Petitioner and
asking him to resign. Alonzo, Gonzales & Landin conspired
against him.
82.
FrostBank uses preliterate tribes to execute its
corporate malfeasance with its fraudulent activities.
83.
FrostBank Checklist verifies that, Petitioner had no
company property such as laptop or phone at the time when
he was in his car on Nov 19. FrostBank perpetrated
numerous perjuries under oath in June/July 2019 when
FrostBank: Gonzales, Landin & Obey perjuriously testified
that they were surrounding him in his car to collect a
company’s laptop & a company’s phone. FrostBank issuedproperty laptop/phone was a phony-story told by perjurers.
Petitioner was not carrying any FrostBank laptop or phone
when he walked to his car and entered into his car to leave.
Petitioner left his work laptop & phone thousand-feet-away
at his desk from where he departed with FrostBank actors
who criminally perpetrated numerous perjuries.
84.
FrostBank gang complotted its hearsay, false, phony
FrostM. FrostBank: Gonzales & Landin created several
perjurious-pretext-docs, which contradict their own crossexaminations under oaths, reveal that both of them have
perpetrated numerous perjuries.
85.
Facts, evidence and self-contradictory-testimonies of
Gonzales, Landin, Torres and others prove that FrostBank
has first brutally assaulted and injured Petitioner and then
filed a false and phony Frost01^ of fake-trespass conspired by
FrostBank thru its own actors Obey & Ortega to county.
FrostBank: Gonzales & Landin both have testified under
oath in their cross-examinations that Petitioner was NOT
terminated that day and Petitioner did not do anything
illegal before or after, when they unlawfully fraudulently
false-imprisoned him thru their fake-trespass conspiracy.
Petitioner was NOT terminated on Nov 19, 2018, until even
after that day when Phil Green, Alonzo, Landin, and
Gonzales fraudulently complotted their phony Frost^* thru
actors Obey & Ortega. FrostBank engaged in a criminal-

Appendix:

D.71

Record References

conduct that is wholly inappropriate to a civil society and is
criminal conspiracy under 18 U.S.C. § 241.
FrostBank Frauds & Conspiracy
86.
Petitioner was engaged in reporting of FrostBank
misconduct that he reasonably believed violates laws
pertaining to Bank-, Accounting-Fraud.
FrostBank covered up its criminal activities and its
subsequent retaliatory conspiracy. Due to FrostBank
Assault with Bodily Injuries and fraudulent falseimprisonment of Nov 19, 2018, Petitioner, incognizant of
unforeseen retaliatory conspiracy of FrostBank, attempted
to investigate on Jan 24, 2019 against FrostBank malicious
acts. FrostBank vigorously further retaliated with its
subsequent perjurious-testimonies and fraudulent-pretextdocs under oath to wrongful-convict Petitioner in June/July
2019.FrostBank conspired to defraud in violation of 18 U.S.C.
§ 371 and Tex. Vernon’s Statutes Art. 581-29-3. Criminal
Responsibility of Corporation.
87.
In June/July 2019, FrostBank vigorously colluded
with Bexar-county for its fake-trespass conspiracy to
retaliate against Petitioner, while Petitioner was still
employee working at that location. FrostBank fooled Jury by
perpetrating numerous perjuries and by spoliation of
evidence & records. FrostBank retaliated thru its faketrespass conspiracy.
88.
FrostBank retaliatory-conspiracy in violation of §§
241, 371 and Bank-Fraud Regulations are criminal acts.23
FrostBank Criminal Conspiracy
89.
Phil Green, Alonzo, Gonzales, Landin, Obey, Ortega &
Torres are malefactors for criminal conspiracy against
Petitioner, punishable under Tex.PENAL §§ 7.02(b), 15.01,
15.02.

90.
FrostBank Officers & actors engaged in violation of
the laws of Texas and the United States, violently false23 OnJuly 8, 2019, FrostBank wrongfully convicted thru its fake-trespass
conspiracy at his own employment.

Appendix:

D.72

Record References

imprisoned Petitioner, fraudulently cooked phony Frost—,
perpetrated spoliation perjuries & spoliation, destroyed
evidence to cover up FrostBank-malfeasance after brutal
assault resulting in serious bodily injury upon Petitioner.
Phil Green & Alonzo had direct connection and Obey,
91.
Ortega & Torres were fully armed when FrostBank: Landin,
Obey & Ortega perpetrated violent crimes against Petitioner
in violation of 18 U.S.C. §§ 1959, 1962.
Alonzo & Gonzales thru Landin, Obey & Ortega on
92.
behalf of Phil Green as one racket executed a full physical
violence of FrostBank on Petitioner. FrostBank Phil Green
thru Alonzo retaliated against Petitioner for his findings and
reporting of FrostBank illegalities & malfeasance.
FrostBank: Phil Green, Alonzo, Gonzales, Landin,
93.
Obey & Ortega fabricated its phony FrostM after engaging
in violence against Petitioner. Alonzo, Gonzales, Landin &
Torres confined him to execute their ringleader Alonzo’s
order directed by Phil Green.
FrostBank colluded with Bexar-county to conspire,
94.
abet its fake-trespass fraudulent-allegation vigorously
against Petitioner despite the fact that he was working there
as an active-employee of FrostBank. FrostBank: Gonzales,
Landin & Obey perpetrated numerous perjuries to wrongfulconvict Petitioner. Wrongful-convictions are due to
shenanigan of FrostBank perjuries & conspiracy against
Petitioner.
FrostBank extreme outrageous & gruesome act was
95.
not mere knowingly providing misinformation so that
innocent Petitioner is prosecuted for fake-trespass, instead
it was FrostBank ordering its paid-gang to perform the
gruesome act together and later writing up its phony
Frost^ themselves using a rubberstamp. EVIDENCE-VIDEOS
& photos show FrostBank cruelty on how gang threw
Petition down and injured after yanking him from his car.
Phony Frost01^ written up by FrostBank used exact same
language, tone and style that Gonzales & Landin had used

Appendix:

D.73

Record References

in their malicious deceitful pretext-docs perpetrating their
perjuries.
96.
Since January 2018 immediately after Petitioner
reported FrostBank-illegalities, FrostBank was conspiring
and threatening to bring false criminal-allegations against
Petitioner, even before FrostBank first cooked its perjurious
malicious deceitful pretext-docs. FrostBank unlawfully
false-imprisoned Petitioner thru FrostBank plotted faketrespass.
97.
FrostBank gang unlawfully plotted fake-trespass
conspiracy by bringing fictitious criminal-accusations
against Petitioner thru its fraudulent pretext-docs to Bexarcounty to wrongful-convict him later in June 2019.
FrostBank vigorously colluded with Bexar-county against
Petitioner’s private rights. County wrongfully used
FrostBank-conspired
fraudulent
pretext-docs.
Filing
perjurious-documents to State and Federal agencies were
subject to Conspiracy and Perjury-charges against
FrostBank.
FrostBank Criminal Responsibility
Under Tex.Penal §§ 7.21 (2)(B) & (C) &7-22 (b)(2),
98.
commission was authorized, commanded, performed, and
recklessly tolerated by a high managerial agents, Phil Green
& Alonzo acting in behalf of FrostBank, and within the scope
of the agent's office and employment.
99.
Phil Green, Alonzo, Gonzales & Landin as individuals
are malefactors for misconduct that the individuals performs
in the name of and in behalf of FrostBank to the same extent
as if the conduct were performed in the individual's own
name or behalf, under Tex.Penal § 7.23 (a).
100. Phil Green & Alonzo as FrostBank agents having
primary responsibility for the discharge of a duty to act
imposed by law on a corporation are malefactors for omission
to discharge the duty to the same extent as if the duty were
imposed by law directly on the agents, under TEX.PENAL §
7.23 (b).

Appendix:

D.74

Record References

FrostBank Quo Warranto
101. FrostBank as a corporation exercised its criminalpower, against Petitioner, not granted by law in the name of
State of Texas in violation of Tex. § 66.001(5).
FrostBank History of Tortious Acts
102. FrostBank intentionally retains outsourced-agents
who have history of violence against individuals. Several
Texas-courts have found the tortious acts of its attorneys.
FrostBank Romero sat in Trialcourt public-gallery
interrupted, prepared and shared FrostBank: Gonzales,
Landin, Obey, Ortega & Torres to be consistent on their
phony
stories
and
perjuries
despite
Trialjudge
admonishment to Romero several times for interrupting the
court from public-gallery when he was not even attorney in
that case. Gonzales, Landin, Obey, Ortega & Torres lied in
the court and told conflicting stories.
Smear Campaign thru Spoliation, Destruction of
Evidence, Stalking & Civil Rights Violations
103. Despite, Petitioner’s court-order to inspect the
premises to take pictures of FrostBank scene -- where
Petitioner’s desk was and where the aggravating-assault &
false-imprisonment took place -- where all the cameras were
above his desk and above his car, FrostBank in contempt of
the court-order denied Petitioner to inspect the scene.
104. FrostBank filed a malicious motion-to-quash,
smearing Petitioner with profane word Robber, to suppress
the whole evidence and whole truth. Beside FrostBank
causing many damages to Petitioner’s reputation since
November 2018, FrostBank Romero prepared, published,
filed and launched FrostBank Smear Campaign suggesting
“Robber” thru its Motion-to-Quash in June 2019.
105. FrostBank publically smeared Petitioner reputation
by making companywide announcements and by asking all
of Petitioner’s coworkers not to contact Petitioner and, by
threatening to prosecute them criminally if anyone contacted
Petitioner or testified against FrostBank.

.*

Appendix:

D.75

Record References

106. FrostBank maliciously complotted a phony Frost2^
using Obey & direct-subordinate rubberstamp-actor Ortega,
destroyed the crucial surveillance evidence from several
cameras above Petitioner’s desk and above his car, later
influenced Jury with its false deceptive hearsays, malicious
deceitful pretext-docs with forged dates, and perpetrated
numerous perjuries.

